<html>
<title> - OVERSIGHT HEARINGS ON CITES MEETINGS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                  OVERSIGHT HEARINGS ON CITES MEETINGS

=======================================================================

                           OVERSIGHT HEARINGS

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

The Upcoming CITES Meeting; The Results of Convention on International 
      Trade in Endangered Species of Wild Fauna and Flora [CITES]

                               __________

                JUNE 3 AND JULY 17, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-29

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 44-107CC                    WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GIL.CHREST, Maryland        SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                Christopher Stearns, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearings held in Washington, DC:
    June 3, 1997.................................................     1
    July 17, 1997................................................    23

Statement of Members:
    Abercrombie, Hon. Neil, a Representative in Congress from the 
      State of Hawaii............................................     2
    Coble, Hon. Howard, a Representative in Congress from the 
      State of North Carolina, prepared statement of.............    54
    Jones, Jr., Hon. Walter B., a Representative in Congress from 
      the State of North Carolina................................     2
    Miller, George, a Representative in Congress from the State 
      of California, prepared statement of.......................    27
        Overview of hearing......................................    49
    Pombo, Hon. Richard, a Representative in Congress from the 
      State of California........................................    23
        Prepared statement of....................................    24
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        June 3, 1997.............................................     1
        July 17, 1997............................................    32
    Taylor, Hon. Charles H., a Representative in Congress from 
      the State of North Carolina................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................     4
        July 17, 1997............................................    32

Statement of Witnesses:
    Barry, Donald J., Acting Assistant Secretary, Fish and 
      Wildlife and Parks, Department of the Interior, accompanied 
      by William Fox, National Marine Fisheries Service, U.S. 
      Department of Commerce; Marshall Howe, U.S. Fish and 
      Wildlife Service, U.S. Department of the Interior; and 
      Susan Lieberman, U.S. Fish and Wildlife Service, U.S 
      Department of the Interior
        June 3, 1997.............................................     5
        July 17, 1997............................................    33
        Prepared statement of....................................    56
        Summary Report on CITES Conference.......................    65
    Boudreaux, Keith, Secretary, National Turtle Farmers & 
      Shippers Assoc., Inc., prepared statement of...............   204
    Evans, Jesse, President, LTFA, prepared statement of.........   206
    Kliebert, Bobby, Bob's Turtle Farm, Ponchatoula, LA, prepared 
      statement of...............................................   205
    Livingston, Hon. Robert L., a Representative in Congress from 
      the State of Louisiana, prepared statement of..............   202
    Mugabe, CDE R.G. His Excellency The President, prepared 
      statement of...............................................    28
    Powell, Hon. Henry ``Tank'', State Representative from 
      Louisiana, prepared statement of...........................   203

Additional material supplied:
    CITES COP10: Zimbabwe, June 1997--U.S. submission............   193
    Department of the Interior, Notice...........................   122
    Department of the Interior, 50 CFR Part 23...................   171



            OVERSIGHT HEARING OF THE UPCOMING CITES MEETING

                              ----------                              


                         TUESDAY, JUNE 3, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
1334, Longworth House Office Building, Hon. Jim Saxton 
(Chairman of the Subcommittee) presiding.

STATEMENT OF THE HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS 
  FROM THE STATE OF NEW JERSEY; AND CHAIRMAN, SUBCOMMITTEE ON 
          FISHERIES CONSERVATION, WILDLIFE AND OCEANS

    Mr. Saxton. Good afternoon. The purpose of today's hearing 
is to discuss the proposed U.S. negotiating positions on agenda 
items and resolutions for the tenth regular meeting of the 
parties to the Convention on International Trade in Endangered 
Species of Wild Fauna and Flora, commonly known as CITES. The 
convention this year will be held from June 9th through the 
22nd in Zimbabwe.
    By way of background, CITES entered into force on July 1, 
1975. Currently 136 countries, including the United States, are 
parties to the convention. CITES is the only global treaty 
whose focus is the protection of plant and animal species from 
unregulated international trade.
    I look forward to hearing from our witnesses about how the 
United States develops its positions on proposal for 
negotiations with CITES; what interagency review is necessary 
for these proposals; and what role Congress plays in developing 
these proposals or positions.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Good afternoon. The purpose of today's hearing is to 
discuss the proposed U.S. negotiating positions on agenda items 
and resolutions for the tenth regular meeting of the parties to 
the Convention on International Trade in Endangered Species of 
Wild Fauna and Flora, commonly known as CITES. The convention 
this year will be held from June 9 through the 22nd in 
Zimbabwe.
    By way of background, CITES entered into force on July 1, 
1975. Currently 136 countries, including the United States, are 
parties to the Convention. CITES is the only global treaty 
whose focus is the protection of plant and animal species from 
unregulated international trade.
    I am looking forward to hearing from our witnesses about 
how the United States develops its positions on proposal for 
negotiations at CITES; what interagency review is necessary for 
these proposals; and what role Congress plays in developing 
these proposals or positions.

    [The information referred to follows:]
    Mr. Saxton. Before we go to our first witness, I would like 
to turn to our fine Ranking Member from the State of Hawaii.

  STATEMENT OF THE HON. NEIL ABERCROMBIE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Mr. Abercrombie. Thank you, Mr. Chairman. I would like to 
submit a statement for the record so that you can move the 
hearing along, and I would like to move that we have any 
statements for the record that may be submitted to the 
Committee be entered appropriately.
    Mr. Saxton. Without objection.
    Mr. Saxton. We have one request that I am aware of: Mr. 
Jones, from North Carolina.

STATEMENT OF THE HON. WALTER B. JONES, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Yes, sir, Mr. Chairman, I would ask unanimous 
consent that a statement by Congressman Charles Taylor be 
submitted for the record, please.
    Mr. Saxton. Without objection.
    [The prepared statement of Mr. Taylor follows:]
Statement of Hon. Charles H. Taylor, a Representative in Congress from 
                      the State of North Carolina
    Mr. Chairman, I want to thank the Committee for this opportunity to 
provide my thoughts on the upcoming meeting of the Convention on 
International Trade in Endangered Species of Wild Fauna and Flora 
(CITES). As you are aware, the Clinton Administration has petitioned 
CITES to list the commercially valuable S. macrophylla (Big-Leaf 
Mahogany) as potentially endangered under Appendix II of the treaty. My 
interest and experience in this area is two-fold. As you may be aware, 
I am the only registered forester in Congress, and it is important to 
me that the policy of the United States on timber issues be informed by 
sound science and proven principles of forest management.
    My concern in this area also derives from the importance of wood 
products to the economy of North Carolina and the nation. Mahogany has 
always been prized by consumers for its beauty, functionality, and 
weather resistance. The production of furniture, decking, and 
decorative arts represent the highest valued uses of this resource. 
This translates into good jobs in North Carolina, Virginia, Kentucky, 
Pennsylvania, Michigan, New York, Indiana, and many other U.S. states--
as well as in range states such as Brazil and Bolivia where economic 
opportunities are not as abundant. By lending economic value to the 
forest ecosystems in that region, Mahogany production provides 
incentives to keep these ecosystems intact. Clearly, all of us should 
be striving for a sustainable utilization of the Mahogany resources 
with which this hemisphere has been generously endowed.
    I have a number of concerns with the proposal to list Big-Leaf 
Mahogany under CITES Appendix II, and the leading role of the U.S. 
delegation in that effort. Most fundamentally, the weight of scientific 
evidence does not show the species in decline. Unfortunately, for some 
time now the debate over Mahogany has been guided more by emotion and 
ideology than facts. Based on what has been presented in the media and 
by advocacy groups, many Americans would be surprised to learn that the 
range of Mahogany is very large, extending from Mexico to Bolivia. Jack 
Ward Thomas, who until recently headed the U.S. Forest Service, 
concluded after a comprehensive review of the evidence that Big-Leaf 
Mahogany is abundant, with an extensive range, and not threatened with 
extinction.
    In all parts of the range, the tree occurs in relatively small 
quantities in comparison to the total standing timber in the forest, a 
growth pattern characteristic of many of the species in Latin America. 
This creates opportunities for selective harvesting in which the 
majority of trees in a forest are left healthy and standing. Range 
states are increasingly relying upon such practices, and many U.S. 
importers of Mahogany insist on shipments from properly managed 
forests. South American governments are also more aggressively 
combating illegal clearing, tightening allowable harvests, and 
repealing tax incentives that had contributed to deforestation. Brazil 
recently suspended logging permits for two years, and my understanding 
is that Peru is in the process of implementing a similar restriction.
    These facts are acknowledged by the U.S. Forest Service--the 
recognized tree experts in the U.S. Government. The Forest Service's 
leading Mahogany expert, Dr. Ariel Lugo has published a detailed 
critique of the Appendix II listing proposal, and concluded that it is 
a ``poor proposal and a bad example of how science is used by the U.S. 
Government to guide the management of natural resources.'' Dr. Lugo 
notes more specifically that the
        . . . proposal does not measure up to the standards of science 
        and fairness required to solve complex and contentious issues, 
        does not reflect the current understanding of the ecology and 
        biology of Big-Leaf Mahogany, it is strongly biased, contains 
        inaccurate statements, and ignores available information that 
        would provide decision-makers with a more accurate 
        understanding of the Mahogany issue. For this reason, the 
        proposal is not a useful policy-making document and should be 
        abandoned.
    In November 20, 1996 comments to the U.S. Fish and Wildlife Service 
(USFWS), then Chief of the U.S. Forest Service Jack Ward Thomas reached 
the same conclusions, noting succinctly that ``none of the criteria for 
listing a species on Appendix II are met.''
    Unfortunately, it appears that the Administration has neglected the 
informed input of its own experts in favor of a more political 
approach. The process of formulating a U.S. position has been 
characterized by haste and the exclusion of divergent views. The USFWS 
participated in three different gatherings of forestry, timber-trade, 
and plant and Mahogany experts this fall, but engaged in no substantial 
discussions of the Mahogany proposal. During these meetings, USFWS had 
an excellent opportunity to inform the groups that an Appendix II 
listing proposal for Mahogany was being considered, and to solicit 
their expertise. This was not done, resulting in a foregone opportunity 
for informed input and discussion.
    Even the scheduling of CITES action on Mahogany appears to reflect 
political dynamics more than sound fact gathering. Acting on the 
proposal in June would moot the efforts of the specially-formed CITES 
Timber Working Group (TWO) which has completed its work and has 
submitted its report and recommendations to the CITES Standing 
Committee. It is premature to forward a listing proposal until this 
group's report and recommendations are received and considered by the 
Conference of Parties in Zimbabwe in June.
    The listing proposal is also premature with respect to the report 
of an internal study on the Convention's effectiveness which was 
commissioned by the CITES Standing Committee. The results of this study 
also will be presented in June. The consultants found (among other 
things) that certain governments and advocacy groups are 
disproportionately represented in the work of CITES, and that CITES 
pays a disproportionate amount of time and effort dealing with the 
issues surrounding a relatively small number of popular species, such 
as mahogany.
    I am also concerned with the characteristic positions of the range 
states on restricting trade in mahogany. USFWS claims that the majority 
of the range states support the listing of S. macrophylla. It is 
notable that only one nation (Costa Rica) has placed unilateral 
restrictions on mahogany exports. This is explicitly allowed under 
Appendix III of CITES. Additionally, it has been reported that only 
Ecuador expressed support for the Appendix II proposal during the USFWS 
consultation process, and that Peru and Brazil have registered their 
strong opposition. The whole CITES proves on mahogany reflects an all 
too familiar pattern of northern hemisphere advocacy groups dictating 
resource policy to their southern neighbors.
    The handling of the listing petition for Big-Leaf Mahogany could 
set an unfortunate precedent. The recently revised listing criteria for 
CITES are being interpreted by advocacy groups very broadly and in a 
fashion which would allow almost any commercial tree species to have a 
CITES Appendix I or II listing. There is a widely-held belief that 
CITES is not a suitable forum for the regulation of widely traded tree 
species. CITES was never intended for this purpose. If S. macrophylla 
is listed on Appendix II, we expect that many additional species will 
soon be proposed for listing as well.
    Many other species are prime candidates for listing proposals at 
subsequent CITES meetings. We call attention to the report of the first 
phase of a study commissioned by the Netherlands CITES Authorities and 
conducted by the World Conservation Monitoring Center (WCMC) that 
evaluated numerous timber species vis-a-vis the new listing criteria 
adopted in Fort Lauderdale. Phase one of the study examined 58 species, 
primarily from Africa and Asia. Of the 58, 41 species overall (29 from 
Africa alone) were found to qualify for listing in either Appendix I (a 
complete BAN on trade) or Appendix II (trade allowed but heavily 
regulated).
    Proponents of listing have argued that Appendix II listing is not 
equivalent to an export ban. However, Appendix II listing would require 
certification of Mahogany exports as obtained from sustainable forests, 
and require routing of shipments through CITES-approved ports. This 
could create additional bureaucratic and logistical burdens, as well as 
opportunities for corruption in the allocation of permits.
    Finally, it is highly questionable that trade restrictions will 
improve the protection of Mahogany forests, and in fact, they could 
have the opposite effect. History has shown that people in developing 
nations will not resign themselves to economic stagnation, but will 
choose between competing development options. In fact, it is generally 
recognized that the greatest threat to tropical ecosystems is clearing 
and burning related to housing, ranching and agriculture. By providing 
an economic incentive to maintain hardwood forests, responsible timber 
production forestalls less attractive development options. As Dr. 
Thomas Lovejoy of the Smithsonian Institution has said, ``the key 
component in preserving and maintaining the tropical forests is to 
ensure these resources maintain their economic value.''
    It is for these reasons that I draw the Committee's attention to 
the Mahogany listing proposal. Appendix II listing by CITES would 
directly impact the future of the U.S. furniture workers and other 
American industries that rely on this resource to meet consumers' 
preferences. Also at stake are the emerging economies of South American 
nations, with whom the United States hopes to build stronger trading 
relations in coming years.
    I encourage the Administration to reconsider their support for this 
proposal and to withdraw it from consideration at the upcoming CITES 
Conference of Parties in Zimbabwe.

    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, this is a timely hearing since the Convention 
on International Trade in Endangered Species of Wild Fauna and 
Flora (CITES) will convene in Harare, Zimbabwe next week. This 
is the tenth time that this organization has met to discuss 
various international trade issues.
    As our lead CITES agency, the U.S. Fish and Wildlife 
Service is required to notify the public of proposals that both 
our government and others will introduce at the Convention. 
This notification occurs through the Federal Register and 
allows interested parties to comment on each of the proposals 
and to recommend how the U.S. should vote on these resolutions. 
This process is very important because it keeps the Service 
from making its decisions in a vacuum without the benefit of 
public input.
    During the past several months, I have met with individuals 
from the U.S. and from other countries regarding different 
agenda items for this upcoming CITES Convention and found their 
comments to be informative. In fact, several individuals have 
suggested that the U.S. delegation and its positions, seem, at 
times, to be out-of-sync with the views of the American public, 
specifically on the issue of protectionism versus sustainable 
use.
    Now I realize CITES was established to protect species from 
becoming extinct due to poaching and the illegal trade of its 
products. Nevertheless, we must keep in mind that for many 
species listed there is, in all likelihood, a group of 
stakeholders who depend on the proper utilization of that 
resource. We must not forget these people as we strive to 
protect the species. If we try to force conservation practices 
without getting input and cooperation from the people dependent 
on the species, we will not succeed.
    We must also rely on science and not philosophy or emotions 
when it comes time to list or delist animals. I have noticed 
that some species, specifically the African elephant, had all 
of its populations listed in Appendix I even though some of the 
populations in Southern Africa did not meet the listing 
criteria. This was done with the understanding that a CITES 
Panel of Experts would review specific populations and 
management efforts and make recommendation on whether to 
downlist certain populations. We must not punish those 
countries who are doing a superb job of conservation.
    Botswana, Namibia and Zimbabwe have proposals to downlist 
their elephant populations and this has become controversial. 
The Panel of Experts has reviewed the populations and has 
recommended the populations be downlisted. The 1997 Panel of 
Experts report stated that these three populations meet the 
criteria for downlisting to Appendix II. However, the Panel did 
note that both Zimbabwe and Japan needed to improve their trade 
controls for better identification of illegally obtained ivory. 
If Zimbabwe and Japan need to improve their trade controls they 
should take the appropriate actions to correct any flaws in 
their respective systems.
    However, and I must stress, the U.S. should not support 
positions or proposals that require additional measures to be 
met after science has supported a downlisting. CITES should be 
used to help rebuild a species, it should not be used to 
permanently prohibit trading of a species if it can be done 
sustainably.
    I hope the Service will keep this in mind when they are 
over in Harare, Zimbabwe. Thank you, Mr. Chairman and I would 
like included in the record a copy of a letter I wrote with 
Congressman Richard Pombo to Chairman Livingston on the 
CAMPFIRE Program, a letter from several Ambassadors from 
Southern Africa to Secretary Babbitt and the Panel of Experts 
Report on the downlisting of the African Elephant.

    [The prepared statement of Mr. Coble may be found at end of 
hearing.]
    Mr. Saxton. We will now move to our first and obviously 
very important witness because he is our only witness, Don 
Barry, Acting Assistant Secretary of Fish and Wildlife and 
Parks of our Department of Interior. I understand that Mr. 
Barry will be leaving very soon for the convention in Zimbabwe.
    And so, Don, you may proceed.

STATEMENT OF DONALD J. BARRY, ACTING ASSISTANT SECRETARY, FISH 
AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR, ACCOMPANIED 
    BY WILLIAM FOX, NATIONAL MARINE FISHERIES SERVICE, U.S. 
 DEPARTMENT OF COMMERCE; MARSHALL HOWE, U.S. FISH AND WILDLIFE 
SERVICE, U.S. DEPARTMENT OF THE INTERIOR; AND SUSAN LIEBERMAN, 
 U.S. FISH AND WILDLIFE SERVICE, U.S DEPARTMENT OF THE INTERIOR

    Mr. Barry. Thank you very much, Mr. Chairman. I would like 
to ask that my written statement be placed in the record as if 
read, and I would just like to make some personal comments and 
remarks about the CITES conference coming up, and CITES in 
general.
    I have been involved the last 21 years in matters involving 
the endangered species convention. I attended the very first 
CITES meeting in 1976 in Switzerland, and this will be the 
eighth conference of parties I have attended. I will be the 
head of the American delegation so this is a convention that I 
have more than a passing interest in.
    I would like to offer my own personal perspective on CITES 
and what I have observed in the past 21 years since the 
convention first came into effect. I believe that CITES is 
critically important. One of the statistics that I found 
impressive a couple of days ago was that the level of illegal 
trade in wildlife in the world is staggering, and this present 
illegal trade in wildlife accounts for the third largest volume 
of illegal trafficking, second only to guns and drugs. So the 
costs and the amount of revenue and moneys involved in illegal 
trafficking is staggering, and I think CITES is a critically 
important vehicle for trying to regulate the volume of illegal 
trade and trying to keep commercial trade sustainable for all 
of the species involved.
    I believe that CITES has had a demonstrable and very 
positive effect on the conservation needs of endangered species 
like spotted cats, crocodiles, and so on. There are a number of 
people who question the effectiveness of CITES, but I think if 
you look at the overall record over the past 21 years, you 
would have to conclude that it has had an important positive 
effect in both highlighting the importance of sustainable trade 
in wildlife, and also imposing restrictions when necessary to 
protect highly endangered species of wildlife which are 
currently threatened by trade.
    I think one of the things that I personally have come to 
appreciate the most about CITES is that the process is very 
democratic and very open, and I particularly like the way the 
United States approaches the preparation of its positions for 
CITES meetings. The U.S. Fish and Wildlife Service, which is 
responsible for the implementation of CITES, begins a series of 
public hearings and public notices that stretch well over a 
year. There are a series of Federal Register notices. There are 
monthly meetings. We go probably to a greater extent with the 
CITES conference in developing the U.S. position than any other 
treaty I can think of, and our process continues even up 
through the conference itself.
    One of things I have always liked the best about the CITES 
conference is that the American delegation meets every evening 
with all the American NGO's, whether they agree with us or not. 
We meet to explain our positions, talk about our strategies and 
get input. I can't think of another convention that is that 
open to American citizens that are over at one of the 
conferences and provide them an opportunity to tell us what we 
should be thinking, and to explain to them why we are voting 
the way we are, and to get input to influence our decisions at 
the conference.
    Things at the CITES conference are very fluid, so even when 
we may start with an initial position, when we get over there, 
we try to listen to the other delegations, and our positions 
will change based on what you learn. The process we have 
established of meeting every evening with the American NGO's 
regardless of their views has been one of the hallmarks of 
CITES conference at least with regards to the way the American 
government has approached it.
    Now, having said that I think that CITES has been 
historically very effective, I have to tell you I see various 
challenges in front of it. First of all, I think there are 
increasingly demanding expectations on CITES. It has become a 
very complex treaty, and for many countries it has become 
difficult for them to implement. That puts a burden on 
countries like the U.S. for continuing to assist with training. 
I think one of the things I have found the most troubling has 
been the increasing polarization of the debate about CITES. 
Things and positions and issues are increasingly determined in 
shades of black and white. The regulation of trade is either 
all good or all evil, and much less meaningful debate and 
analysis seems to be taking place at the conferences, and that 
is a tragedy.
    I think another thing I have noticed is that increasingly 
there is an erosion of the civility of the debate. People 
increasingly have a tendency to view participants at CITES as 
either saints or sinners, and you are either totally good or 
totally bad, and the viewpoints of your opponents are fairly 
bankrupt. You are left with the impression that if you don't 
agree with me, you are either incompetent, corrupt, or an 
ignoramus.
    And I think one of the tragedies is as we have developed 
our positions, our ability to listen to and work with each 
other seems to have eroded, and I would like to suggest that 
one of things I will try to accomplish at this coming 
conference is to be able to have a debate with people we may 
disagree with, but to be able to do it in a nondisagreeable 
way. And I think it is important for us all to try to not lose 
sight of the fact that all of our overall goals are the same, 
we just may reach different conclusions. And I would hope that 
at the conference and at this hearing, and as we continue our 
debate and discussions on CITES, we can continue to look for 
ways where we can emphasize our areas of disagreement, and when 
we disagree with people, we do it in a nondisagreeable way.
    That concludes the sort of general remarks I would like to 
make. I would like to ask your permission at this point to have 
a couple of members of our staff who are sort of the technical 
experts on individual issues come up to accompany me at the 
table in case you would have specific questions regarding 
particular species, in particular Marshall Howe, Sue Lieberman 
and Bill Fox. The first two people are in the U.S. Fish and 
Wildlife Service, and Bill Fox is with the National Marine 
Fisheries Service.
    [The prepared statement of Mr. Barry may be found at end of 
hearing.]
    Mr. Saxton. That would be great. At the same time I would 
like to ask unanimous consent that Rich Pombo be able to sit on 
the dais and ask questions.
    Without objection. Please come forward.
    Mr. Barry, I would like to talk for just a minute about the 
Asian elephant, so I am glad you had your folks join you. 
Tomorrow at 10:30 a.m., Mr. Abercrombie and I are hosting an 
event in front of the Main Capitol, which will include as its 
main attraction an Asian elephant, and we are doing so to 
announce the introduction of a bill which will create a program 
much like the African Elephant Conservation Act, where our 
government, pursuant to this bill, would make available $5 
million to be used over 5 years to promote conservation efforts 
that have to do directly with the Asian elephant.
    Can you or one or two of your associates comment on the 
effect that this would have in terms of coordinating with 
CITES? I understand the Asian elephant is listed under Appendix 
I, which is, I believe, the most seriously endangered species, 
and I am just curious to know if you endorse this concept and 
how it might work in conjunction with the convention and the 
general concept embraced by CITES.
    Mr. Barry. Let me first mention that we, of course, don't 
have an official bill that we would be asked to review at this 
point, so I would not have any formal, official comment from 
the administration. I think it is safe to say that the Asian 
elephant is even more critically endangered than the African 
elephant. We are very concerned by the adequacy of conservation 
measures for the Asian elephant.
    As a general matter, efforts to promote the conservation of 
the Asian elephant and to assist its conservation would have to 
be viewed as a positive, good thing, and I certainly wouldn't 
see anything inconsistent with the goals of CITES if 
alternative means of providing additional assistance for Asian 
elephant conservation would be provided. We would have to wait 
until the bill were introduced before we would have an official 
position on that matter.
    Mr. Saxton. I appreciate that. What is the role of the 
convention, and how are decisions or recommendations that are 
arrived at by the convention put into force in the countries 
that are parties to CITES?
    Mr. Barry. The Conference of the Parties takes place about 
every 2 years. The various different parties have an 
opportunity to offer suggested changes to the appendices. You 
can add species to the list, take species off the list. You 
also have an opportunity to offer resolutions interpreting the 
convention. And you will end up during the conference itself 
having these two different activities undertaken 
simultaneously, debates on species status and debates on 
interpretations of the convention.
    Once the convention or the Conference of the Parties is 
over, the parties will then have 90 days in which to file a 
reservation if we disagree with one of the activities taken 
with regards to a particular species. They will have an 
opportunity to go back to their countries, ideally to begin the 
implementation of the resolutions that have been adopted.
    One of things that is interesting about the CITES 
conference is the vast majority of resolutions that are adopted 
interpreting the convention are done by consensus. There is a 
very high premium on being able to work things out at the 
convention, so frequently working groups are set up. If 
somebody starts out with a proposal, somebody disagrees, they 
frequently set up working groups to go off and work their 
differences out. You rarely have votes to see what the final 
nose count is, and there is an emphasis on trying to reach a 
consensus so the resolution would be implemented.
    Each country is tasked then with the responsibility of 
beginning to apply the requirements of the convention for 
species which may have been added to the list. They are 
expected to try their best to begin to implement any of the new 
resolutions which may have been adopted, and through this 
manner you will move forward and continue the implementation 
process of the convention until the next Conference of the 
Parties.
    So there is this continual process of trying to reform, 
refine, make the convention more efficient, to review the way 
that it is working. There was just recently a major study 
conducted on the role of the convention and the future of the 
convention, in which all of the parties had a chance to testify 
on it and submit comments. So there is a continual process of 
looking for ways to make the convention better.
    Mr. Saxton. How would you characterize the activities of 
the 136 member countries in terms of on a scale of 1 to 10, 10 
being the most cooperative and the most compliant, and 1 being 
the least? Do we get a lot of compliance with regard to the 
member countries or a little on a scale of 1 to 10?
    Mr. Barry. I am going to suggest that Sue Lieberman answer 
that because she works in the Wildlife Permit Office and deals 
with other countries on a more day-to-day basis.
    Ms. Lieberman. Thank you.
    In reality there are many countries I would give a 10 to, 
but unfortunately there are countries we would give a 1 or 0 
to. Many countries do not even have effective CITES 
implementing legislation. In many countries, that is due to a 
lack of infrastructure or lack of resources. In other countries 
it is unfortunately due to a lack of will or lack of interest. 
So there is a broad spectrum.
    We have done a great deal of CITES training since the last 
conference, and we hope to be doing that as well, both 
compliance and enforcement training. So there is a lot of 
improvement that is needed.
    Mr. Saxton. And is there anything that our country can do 
to increase the levels of compliance by those who are not--that 
you referred to as 0s or 1s?
    Ms. Lieberman. Well, there is a lot that can be done. We 
are working with some countries, but there are other countries 
that we are looking at whether or not we should be accepting 
shipments from those countries. We have bilateral discussions 
with some countries which have resulted in improvements.
    Mr. Saxton. Shipments being commerce, trade?
    Ms. Lieberman. Exactly. Wildlife shipments, plant 
shipments. We are also working with the Agency for 
International Development Partnership for Biodiversity in 
funding some training programs, bringing some enforcement 
agents next February from throughout Asia to improve our 
wildlife CITES law enforcement in a number of countries. So 
there is a lot to be done, and sometimes it is the heavy hand 
and sometimes the light hand of training.
    Mr. Barry. Let me say something along those lines. The 
United States probably has the most sophisticated wildlife 
conservation programs in the world. We certainly have the most 
resources we can apply. We think it is our obligation to try to 
help other countries where we can; and to the extent you have a 
country which is trying very hard to improve its infrastructure 
to train people, where we have the resources, we would like to 
help them wherever we can.
    Mr. Saxton. Thank you very much.
    Mr. Abercrombie.
    Mr. Abercrombie. Thank you very much, Mr. Chairman.
    Ms. Lieberman, I am going to work backward a little bit, 
back to Mr. Barry. When you talk about improvement is needed, 
what precisely can we do, and can you comment on that in the 
context of China? What is the current situation with regard to 
either importing or exporting of illegal--in illegal trade or 
unwise trade under the criteria established by CITES?
    Ms. Lieberman. In fact, there has been significant 
improvement of late in China. The administration certified 
China under the Pelly amendment for undermining CITES just a 
few years ago. But there have been significant improvements in 
China. A delegation from Fish and Wildlife Service provided 
CITES implementation and enforcement training in China just 
last October. China has established regional CITES management 
authorities and has made a much stronger commitment to 
training.
    There is a lot of work to be done. A delegation from China 
under our U.S. PRC Nature Conservation Protocol will be 
visiting here in October for CITES training, visiting our port 
in Los Angeles, and we will be sending a delegation from our 
forensics laboratory in Oregon to China next April. We think 
the government in Beijing is committed to making improvements, 
but there is more work needed to make that a reality.
    Mr. Abercrombie. Well, that is a nice statement, but I 
would like to know what the situation is. What constitutes 
``significant improvement''? Exchange of delegations doesn't 
mean much to me.
    Ms. Lieberman. China is beginning to make wildlife 
seizures. They have passed and adopted new CITES legislation 
that actually creates penalties, significant penalties and 
fines for noncompliance with CITES. They are beginning to make 
some enforcement cases, and our agents are working with their 
agents. They are participating with Interpol in making some 
seizures, actual seizures and actual convictions.
    Mr. Abercrombie. Thank you very much.
    Mr. Barry, in both areas, for example, in whaling or where 
the African elephant is concerned, there are proposals for 
downlisting from 1 to 2, at least in some areas. And I am 
presuming that such scientific methodology and information, 
such information as might be examined in a scientific way is 
utilized under what is called a special criteria, right? There 
are special criteria and a board of experts that help to 
establish a rationale for whether the proposals will be 
accepted or not, right?
    Mr. Barry. That is correct with regard to the African 
elephant.
    Mr. Abercrombie. OK. Yeah, the International Whaling 
Commission, I guess, has sort of a precedence with what CITES 
may take up where whales are concerned.
    Mr. Barry. Many years ago, the International Whaling 
Commission asked CITES to basically support its overall method 
to be consistent, and I believe it was in 1983, the parties 
responded to that request and agreed to put on Appendix I all 
specimens of whales that were subject to a moratorium under the 
IWC. So we have tried to implement the convention in a manner 
consistent with the IWC.
    Mr. Abercrombie. My question is given that background, is 
there common agreement as to what scientific information and 
methodology needs to be implemented or utilized in those two 
areas, the whaling or where the African elephant is concerned?
    Mr. Barry. I will turn to Marshall Howe on that matter. Let 
me just offer one general thought. With regard to the panel of 
experts for the African elephant, one of the things that they 
are supposed to consider is the biological status of a 
particular elephant population. And so the Conference of the 
Parties thought it would be useful to get experts on elephant 
conservation and elephant biology to offer advice on that 
particular matter. There are other organizations around the 
world that comment on the scientific credibility of a given 
proposal.
    Mr. Abercrombie. Well, that takes me where I need to go. 
Excuse me for interrupting, but my time is going to slip by.
    My point is if there is common agreement or general 
agreement as to what scientific methodologies should be used 
and what kind of information should be gathered, and if there 
is agreement that the people involved are, in fact, capable and 
competent, then what is the basis for the disagreement cited? 
The information I have, in both of these areas, the downlisting 
of the African elephant and the whales--the mink whale, et 
cetera, why are some groups then saying that they shouldn't be 
downlisted, and others, presumably looking at the same 
criteria, and assuming that people are not being bribed or 
acting in some surreptitious way, why is there a disagreement; 
why is this happening?
    The reason I ask the question, if you will let me finish 
up, Mr. Chairman, if we get into what you cited in your 
testimony, name-calling, so on, people disagreeing, it is not 
that I believe that science is the beginning and ending of 
wisdom, it is a methodology after all. I believe the scientific 
method really is a philosophical--we could discuss that at some 
point. It is almost an ideological point of view. But if you 
have the common basis then, the whole idea of establishing it 
was to get rid of this accusation, confrontation kind of 
approach to it.
    Mr. Barry. I think in the case of the African elephant, for 
instance, the debate goes way beyond the biology and the 
science. This is a convention that regulates trade, and so the 
panel of experts is asked to not only consider the biological 
status of the populations, but also, in addition to that, the 
management capabilities of the given country and the effects of 
trade on the particular population. And so frequently what you 
will find is the focus on the impacts of trade as sort of 
spurring the debate and generating the greatest amount of 
disagreement among experts as opposed to the underlying science 
itself.
    Mr. Abercrombie. So is the--is it really an argument about 
whether trade should take place at all. It is difficult for me 
to think at this stage that the effect of trade could be all 
that much in disputation.
    Mr. Barry. Well, in the case of elephants, again, if you 
allow a regulated trade to resume in one area, will that 
stimulate poaching in other areas for populations that aren't 
as stable.
    Mr. Abercrombie. OK, thank you, Mr. Chairman.
    Mr. Saxton. Mr. Barry, I have to lead the--the bill we 
worked on is on the floor, or will be, momentarily. So I am 
going to rush over and take part in that discussion. And so I 
would like to ask unanimous consent that Mr. Pombo be named as 
Chair in my absence. Without objection.
    Mr. Pombo. [presiding.] Thank you.
    To start off, Ms. Lieberman, a couple of weeks ago when we 
talked, we talked briefly about the sturgeon issue. I was 
wondering, I guess, what kind of an update you can give me on 
that issue in terms of the difference between aquaculture and 
wild stock and what impact that is going to have if the 
proposed listing were to proceed.
    Ms. Lieberman. I can give you a little bit of an update, 
and then if Marshall Howe has anything more to add, that would 
be fine.
    We continue to support aquaculture; particularly that that 
we have already visited in California is very well regulated; 
it is excellent, and we believe it is something that is going 
to be growing significantly in the future, particularly the 
white sturgeon.
    In terms of the impacts of the list, CITES listing, of all 
of the sturgeon species in Appendix II, that is being proposed 
for similarities of appearance because of the difficulty in 
identifying whether or not it is caviar from the white sturgeon 
here or the really endangered populations in the Caspian Sea. 
We believe we will be able to work closely with our 
counterparts in Canada, where the majority, if not all, of the 
white sturgeon meat and caviar coming from the U.S. is being 
exported, to be able to expedite trade, to particularly be able 
to expedite permits issuance so nothing holds up issuance of 
the permits, particularly of the caviar, which is very fragile 
and very perishable. We think we will be able to be flexible in 
that regard. We are also working closely with our Canadian 
counterparts as well and have had additional dialog with them 
and hope to be able to discuss at the CITES meeting how things 
can be expedited for trading in both caviar and meat.
    Mr. Pombo. Mr. Howe, do you have anything you want to add 
to that?
    Mr. Howe. I think what Sue said pretty much covers the 
issue. I just reiterate the need to list both this species and 
all other nonendangered species of sturgeons because of the 
similarity of appearance problem. It is a problem in the 
international trade arena, and all the steps Sue has pointed 
out are steps we are planning to take, and we are still 
exploring other ways to minimize impacts on the industry.
    Mr. Pombo. What assurances--before we leave to go to the 
convention, what assurances can we give the aquaculture 
industry here that the listing will do no harm to what I think 
they are doing the right thing, and they should be encouraged? 
And one of the things that concerns me is that we put the 
incentive or the disincentive in the wrong place here, and I am 
concerned that it is going to have an adverse impact on people 
that are really doing the right thing in terms of cultivation 
of this particular species.
    Go ahead, Ms. Lieberman.
    Ms. Lieberman. Let me say I think you bring up an important 
point in that there is also a misconception that when a species 
is listed in Appendix II, which regulates trade to prevent it 
from becoming endangered, that that is some scarlet letter E. 
But it isn't at all. We are trying to get the word out here in 
the United States, because the largest market for caviar in the 
world is right here in the United States. There is no CITES 
impact. The aquaculture industry in California and other States 
that are doing the right thing should not be negatively 
impacted. In fact, we are very committed to working to have 
that impact be a positive one, to get the word out on why it is 
good to buy California caviar.
    Mr. Pombo. How would you do that?
    Ms. Lieberman. We would be delighted to work through public 
education through our public outreach, our public affairs 
office, media outlets when we get back from the CITES meeting, 
as well as the media with the CITES meeting; there are a lot of 
those opportunities. We will be sure to get that word out.
    Mr. Barry. Congressman, let me just mention that I share 
the concerns of the regulated community who are concerned about 
the effects of a CITES listing upon them and upon their 
operations. I was only shown a copy of your letter to Secretary 
Babbitt this afternoon. I would just assure you that should the 
conference decide to list all sturgeon on Appendix II, it would 
be one of my goals and my intentions to work closely with the 
Fish and Wildlife folks and folks in the aquaculture industry 
to look for every possible opportunity for expediting and 
streamlining the permit process with the goal of dramatically 
reducing its effect on anything that they do.
    Mr. Pombo. I was going to go to my next question, but 
recently I had the opportunity to speak with agricultural 
ministers from two countries in the Far East, and they made the 
point to me that they felt that species that are listed under 
Appendix II, that there would be a disincentive for them to 
continue with their aquaculture programs in producing them, 
because there would be some stigma attached with those 
particular species. They are trying to develop export markets, 
and they felt this would end their ability or the financial 
incentive would no longer be there for them to continue with 
this as an export market.
    I found it interesting that they had that perception of 
this. And they felt that it would be a huge disincentive to 
them in developing an aquaculture industry for export because 
of it.
    Mr. Barry. Actually, I would have reached a different 
conclusion, with all due respect, in this particular situation. 
If you have an Appendix II export permit from, say, the United 
States, it clearly indicates that this is not illegal caviar 
coming from the Caspian Sea. And, increasingly, countries 
around the world are concerned about the effect of smuggling 
caviar, and the Appendix II requirement merely requires that 
the country of origin makes some finding and issue a permit 
that it is from their country and the continued trade will have 
no detriment on the stock coming from their country. So it 
identifies the source which eliminates any conclusion or doubt 
as to whether or not the particular product might be coming 
from an illegal source. So I would think actually the presence 
of that certificate would help clarify that this is not an 
illegal source, this is not a product in illegal trade, and 
would help facilitate its movement throughout the country and 
the world.
    Mr. Pombo. Well, I asked both of them to give me more 
information on exactly what their problem was so that we could 
pursue that.
    I appreciate your commitment to working with me on trying 
to deal with this issue, because it has caused some concern, 
particularly the permit issue, the $80 fee on the permit issue, 
and what impact that would have economically on the industry to 
be able to do that. And I appreciate your assurances to work 
with me to get through this so it will have as little impact as 
possible.
    In terms of process on the way this works, now, one of the 
examples that I was given was with the Bigleaf mahogany and the 
proposal to list that. Now, I know that Fish and Wildlife 
Service was the lead agency with CITES, but I am told that the 
U.S. Forest Service believes that the proposal to list the 
Bigleaf mahogany is bad science, or bad policy ignoring the 
standard of science. And in the United States, they would be 
the lead agency, but in this particular agreement, they are 
not.
    How do we work through a problem like that where you may 
have one U.S. agency that feels one way and you feel a 
different way and how do we work out the differences there?
    Mr. Barry. Let me give you a quick general answer and then 
let Sue give you a more specific set of examples of how this 
works in practice.
    The U.S. Fish and Wildlife Service does have the lead under 
CITES, but going back to the beginning in 1976, they have 
always had an interagency cooperative effort and worked very, 
very closely with the other agencies that have major roles to 
play. It includes APHIS regarding the importation-exportation 
of plants; it includes increasingly the Justice Department 
because of their enforcement responsibilities; it includes AID; 
it includes the State Department. We have a large number of 
agencies that we will work together with; and as we head into a 
CITES conference and begin to identify the types of issues that 
are out there, we will begin an interagency discussion and 
process to begin to finalize and reach consensus on our points 
of view.
    In the case of the mahogany, it is true there were some 
people in the Forest Service who were initially concerned and 
opposed to the listing. Over time, though, as we began to work 
on this together cooperatively, and went to interagency and 
international meetings on mahogany, our positions began to 
merge and blend to the point where today the Forest Service 
supports listing.
    This is common with a number of issues. We will frequently 
start off with different points of view, and as we work 
together we will explore each other's assumptions and exchange 
information. Our goal is to reach a consensus point on a 
position, and on this particular issue, mahogany, we did that.
    There were a series of meetings, that is all I can suggest, 
a series of meetings back and forth with a number of parties, 
including the State Department international experts, and 
others, and we eventually reached agreement on the position 
that we have.
    Mr. Pombo. So, did the proposal change or did the U.S. 
Forest Service acquiesce to your positions?
    Mr. Barry. The proposal did not change, and eventually the 
Forest Service acquiesced and reached agreement with the 
position that we had. I think a lot had to do with the 
difference of one's assumptions as to whether or not CITES was 
intended to take into account the Act in a particular area that 
a particular specimen may play, the role in the ecosystem that 
it may play, and eventually as the scientists talked this 
through, agreement was reached on the proposal.
    Mr. Pombo. One of the things that concerns me is that that 
is not consensus, because--or a compromise, because the 
position, the proposal, didn't change at all. And--go ahead.
    Mr. Barry. I was just going to say, again, frequently in 
these matters, what you will discover is that as the different 
agencies continue to discuss these matters, everybody is sort 
of bringing different perspectives to the table. Even within 
the Forest Service there was a difference of opinion. There 
were people in the Forest Service who even right from the 
beginning strongly supported the proposal. I think a lot has to 
do with understanding CITES, understanding what an Appendix II 
listing means that it is not intended nor should be interpreted 
as a ban in trade on a particular product.
    As we continued to pursue that, and, I might add, 
communicate and talk to some of the range states to find out 
what their views were, the countries that actually possess the 
mahogany stand. As we all began to sort of incorporate all of 
the information that we acquired, a consensus emerged among the 
different agencies that this was a correct proposal.
    Mr. Pombo. In the countries that are directly impacted by 
this, did they support this?
    Mr. Barry. One of the changes in position that was very 
important in this discussion was Bolivia. Bolivia had strongly 
opposed the listing of mahogany at the prior Conference of the 
Parties. At this point, Bolivia supports the U.S. proposal, and 
that is a significant change of position.
    Brazil still disagrees. So I think most, if not all, of the 
countries in Central America who have mahogany populations 
support the proposal. I think what you would find is that the 
significant majority of the range states with mahogany support 
this proposal, but not all of them.
    Mr. Pombo. I know we are going to have an opportunity to 
discuss a lot of these different issues in great detail over 
the next few weeks, but you have not taken an official position 
yet on the African elephant issue; is that correct?
    Mr. Barry. Well, let's put it this way. That issue was one 
of the most difficult ones for us to reach a final judgment on. 
One of the problems is that the range states, the African 
elephant range states, are meeting tomorrow I believe, or at 
least heading into this weekend, in the next day or two, before 
the conference, to sort of reach a final position among 
themselves as to what they feel about these proposals. The 
administration does have a point of view on this matter, and I 
anticipated being asked the question along those lines, so I 
would be more than willing to read to you the statement that 
the administration has on the African elephant if you----
    Mr. Pombo. Yes, go for it.
    Mr. Barry. OK. The administration recognizes the 
professional efforts of Zimbabwe, Botswana, and Namibia in 
managing healthy wild elephant herds. Nevertheless, the 
administration remains firmly opposed to a resumption of 
commercial trade in ivory and cannot support any downlisting 
proposals for African elephants at the upcoming CITES 
Conference of the Parties. The administration is concerned that 
an airtight system of export and import controls for ivory does 
not exist, therefore increasing the possibility that illegal 
shipments of ivory might be blended in with lawful shipments 
from Namibia, Botswana, or Zimbabwe.
    At previous CITES conferences, a number of African elephant 
range states have expressed concerns that downlisting of any 
elephant population could undermine existing enforcement and 
increase poaching and illegal trade. The administration 
recognizes that the three downlisting proposals contain 
restrictive annotations limiting the scope of commercial trade. 
However, significant uncertainty exists within CITES regarding 
the legal effect of such annotations and the procedure by which 
they may be altered.
    In addition, the downlisting would appear to limit or 
eliminate the role of the CITES panel of experts which has been 
highly valuable in evaluating management efforts, both in range 
states and in the potential consuming nations. The 
administration finds itself unable to support any downlisting 
proposal based on restrictions which may be altered or lifted 
without approval of two-thirds of the CITES parties or without 
examination and evaluation by the CITES panel of experts.
    For the above reasons, the administration believes these 
proposals would pose unacceptable risks to elephant populations 
and cannot support their adoption at the upcoming conference.
    Mr. Pombo. Not to put words in your mouth, but that means 
you oppose?
    Mr. Barry. We oppose.
    Mr. Pombo. OK. I know you have got an official statement 
there.
    Getting back to a point that I had raised earlier, wouldn't 
it be better to work with the countries that are doing the 
right thing in managing in a sustainable effort and reward them 
for doing that than it is to take the position of opposing and 
no longer giving them an incentive to do what they are doing?
    Mr. Barry. I don't think there is any question that a 
country like Namibia, for instance, has managed their elephant 
populations in a highly professional and competent manner. They 
have a healthy population of elephants, they had developed an 
excellent proposal for how they wanted to use the ivory money 
from the sale to Japan, but I think ultimately at the end of 
the day the concerns that we had were that because the trade in 
ivory is still going on illegally, that there could be no 
adequate assurances that allowing a limited sale from Namibia 
would stimulate poaching in other countries.
    One of the things I read over the weekend was a fairly 
lengthy document prepared by TRAFFIC analyzing the ivory trade 
today. It is probably one of the best documents or analyses on 
the effects of the ban, the 1989 ban in ivory trade, and it was 
basically focusing on Asian markets, looked extensively at 
Japan, and tried to assess effects of the ban on trade.
    One of the things they concluded is Japan is still 
consuming large quantities of ivory but their stockpiles don't 
seem to be going down. In Japan, there is a very buoyant market 
still for the little signature blocks carved out of ivory, and 
when you take a look at the huge quantities of ivory being 
consumed in Japan for that hanko market, there is a disconnect 
somewhere. There is obviously more ivory in Japan than their 
stockpiles would suggest, and the only conclusion you can reach 
is either the stockpiles are inaccurate or illegal ivory is 
being blended into Japan.
    One of the things the TRAFFIC study also noted is in Africa 
today there is an expanding market, or at least an expanded 
cottage industry for taking elephant ivory and semi-processing 
it, cutting it down into smaller blocks. This, the TRAFFIC 
study notes, makes it easier for smugglers to get smaller 
quantities of semi-worked ivory pieces out of the country, and 
they believe that a fair amount of the ivory which is going out 
of the country seems to be destined for Japan for this hanko or 
signature job market.
    So I think one of the concerns is that even when you have a 
very well drafted proposal, as the Namibia proposal, it could 
still result in the stimulation of poaching in other countries 
and we have yet to have an airtight system that has precluded 
illegal ivory from reaching markets like Japan.
    Mr. Pombo. Taking what you just said, if the current system 
still allows poaching, still allows illegal quantities of 
ivory, it seems to me that what we ought to be doing then is 
going to the next step, which is to reward the countries that 
are managing their populations correctly and trying to do the 
right thing. Even though it is not perfect, we all know that, 
but we are trying to do it right. And by rewarding them and not 
those that are allowing poaching to continue, it seems like we 
would be going to the next step in terms of sustainable 
development of the wildlife in those particular areas. That 
seems like a more positive thing to do than to continue with 
the ban that by your own admission is not working either. It 
may have reduced the numbers of animals that are poached, but 
it is still occurring under the current system.
    So if we put the incentives in the right place to reward 
the countries for operating, for good behavior, we would then 
be encouraging the other countries who have not yet joined that 
new management technique, encouraging them to develop the same 
kind of management techniques, therefore bringing the whole 
region along.
    Mr. Barry. I think while there is some initial logic to the 
argument you just made, the fact that in the past the clear, 
clear majority view in Africa of other African range states has 
been in opposition to downlist elephant populations, even from 
states who are well managed. What that suggests is that the 
other range countries are concerned about the effects of 
rewarding, as you said, a well-managed herd. They are concerned 
about the spillover effects on their own populations, either 
through increased poaching, and so on. And I think it does, it 
puts a country like Namibia in a difficult position where we 
are managing their herds well and they feel they have a need 
for getting economic benefit from their efforts, but I think 
the fact that we have yet to be able to develop an airtight 
system of international trade in ivory suggests that it is not 
worth the risk.
    One of the things that the TRAFFIC report did was it traced 
the history, going back over a series of the conferences of the 
parties, going all the way back to the early 1980's and how at 
each Conference of the Parties the parties struggled to try to 
regulate the trade in ivory and adopted a series of 
resolutions. And by the time they wait, 2 years later, they 
find they still have a problem and adopt another set of 
resolutions. In 1981 this happened, in 1983, 1985, and 1987. 
And what you see is that the CITES parties continually tried to 
figure out how to establish a mechanism to regulate the trade 
in ivory and avoid the hemorrhaging and poaching that was 
occurring.
    I think what happened in 1989 is that they just gave up. We 
realized after four succeeding conferences and the adoption of 
well over a dozen different resolutions on ivory that nothing 
seemed to matter, and it was important to try to stem the tide, 
and at that time it was time to prohibit all international 
trade in ivory.
    Mr. Pombo. Mr. Peterson, did you have a question?
    Mr. Peterson. No, not at this time.
    Mr. Pombo. Well, I think that at some point someone is 
going to have to step ahead and look at a new management tool, 
a new way of regulating this as a whole, and I have not had the 
chance to read the report that you reference, but if you look 
at this and say what we are currently doing has not worked, has 
not been successful, maybe it is time to look at a different 
approach.
    I see a lot of good things, and again, I know it is not 
perfect, but I see a lot of good things that these countries 
are doing right now.
    Mr. Barry. Those are some of the best managed herds in 
Africa.
    Mr. Pombo. When you compare it to what is happening to 
other countries that are not managing in that way, what is 
currently happening with the Asian elephant that is not being 
managed in that way, I think that you can see what these three 
particular countries have done has been very positive for their 
elephant populations. And I think that the United States should 
be in the forefront of stepping out and saying maybe this is a 
new way to do it, maybe this is a positive thing that we should 
be on the side of.
    Mr. Barry. Perhaps maybe one thing that is worth exploring 
are opportunities to provide some form of compensation for the 
noncommercial acquisition of stockpiles. One of the functions 
that will take place at the conference is what to do with 
existing stockpiles.
    I think our concern is when you reengage, even in a limited 
way, a commercial sale of ivory to put it back in trade in 
Japan where there is so much ivory in Japan today that seems to 
be unregulated, that increases significant concerns about 
enhanced poaching. Clearly those stockpiles are growing.
    One thing that has been suggested by some people, we have 
not really had an opportunity to explore it in-depth, is the 
idea of some type of alternative form of compensation, a 
noncommercial way. Some people have suggested a debt for nature 
swap, where countries would give up debt to an African range 
state in exchange for their agreement to set aside some of 
their stockpiles of elephants that clearly were identified as 
coming from their countries.
    Other people have suggested alternative ways of 
compensating them for the noncommercial acquisition of the 
ivory, setting it aside, not using it for commercial purposes. 
Some of these ideas if explored more fully, if they ultimately 
seem to have promise, might provide opportunities for providing 
compensation to those countries that are managing their herds 
well in a way that doesn't further stimulate the 
commercialization of ivory.
    Mr. Pombo. Well, that is an interesting proposal. The one 
problem that I see right off the bat with it is that it does 
not decrease the demand for ivory in a commercial sense. 
Therefore, the poaching will continue in the other countries 
even if you do get someone to sign on to that idea.
    The illegal trade in ivory will continue. You will not 
satisfy the demand for the commercial side of it, so you may be 
setting aside that one particular population, but it may have a 
negative impact, a much greater negative impact on the other 
countries than the proposal that was put forth.
    Mr. Barry. Again, these are ideas that are being floated at 
this point. We haven't had an opportunity to explore them in 
any great detail, but I do think they have some promise and at 
least are worth looking at.
    Mr. Pombo. Just to switch gears a little bit here, and I 
know that this is probably one of the more controversial issues 
that will be dealt with. I know it is already generating a fair 
amount of media, is the issue with the whales. And I know that 
Mr. Abercrombie touched on this earlier.
    How do we balance the U.S. position of sustainable yield, 
sustainable development on species and the positions that we 
take on the whales?
    Mr. Barry. I am going to ask Bill Fox to respond to that. 
Bill has spent many, many more years working on this.
    Mr. Fox. You ask a very interesting question, Mr. Chairman, 
as to how we balance our position with regard to sustainable 
use and our position on whales. I think our position with 
regard to sustainable use and with regard to our position on 
whales is actually fairly consistent. While the United States 
has made it clear that it does not foresee in the near future 
being able to support the resumption of commercial whaling, it 
has worked very hard within the auspices of the International 
Whale Commission and with its own scientific resources to 
develop sound information on the status of whales and to 
develop a management procedure which, if implemented, would be 
safe for the whale populations. And so we have invested quite 
heavily in providing the tools for the International Whaling 
Commission to approach the position at some time in the future 
of sustainable use of whales.
    It has been virtually every administration's position that 
I can remember to not support the resumption of commercial 
whaling and that still exists. We still haven't gone through 
all the steps that would allow us to conclude that that could 
occur.
    Mr. Pombo. The CITES Secretariat has found that downlisting 
of these whale stocks conforms with CITES rules' influence. How 
will that influence the U.S. position?
    Mr. Fox. Well, we were actually quite astounded at the 
conclusions drawn by the Secretariat in their analysis of 
proposals. The U.S. position on the downlistings is, first, 
that we believe very strongly in cooperative and collaborative 
relationships between international conservation and management 
organizations, and the International Whaling Commission has 
requested, as Mr. Barry pointed out in his earlier remarks, 
that CITES support the IWC moratorium on commercial whaling 
through a listing on Appendix I of all species that are subject 
to that moratorium. In fact, CITES adopted a resolution, 
resolution 2.9, asking all the members to do that. And so until 
such time as the International Whaling Commission rescinds that 
request or the Conference of the Parties rescinds resolution 
2.9, and I believe there is also another resolution that is 
relevant our position is to go with that collaboration and 
continue to support the requests of the International Whaling 
Commission.
    Mr. Pombo. So it is not CITES but the International Whaling 
Commission.
    Mr. Fox. Well, it is also CITES. Our first objective is to 
ensure that we have this proper collaboration on it, and if you 
look at it in complete isolation, there are criteria that have 
to be looked at from the standpoint of downlisting from 
Appendix I to Appendix II, that transcends simply the 
scientific basis of the listing of the whales.
    In answer to Mr. Abercrombie's earlier point, there is 
substantial agreement on the status of the world's whale stocks 
in the ocean, but among scientists, being what they are, you 
can also find critics on that, but there is substantial 
agreement on the status of whales. So that is not a principal 
issue.
    There is an issue with regard to management, that if you 
downlist our whale stocks you will run afoul of the look-alike 
problems in being able to determine the species and location of 
where the whale meat and other products would come from that 
would have to be resolved as well. So there are a series of 
things other than just the scientific status of whales that 
relate to what appendix animals are listed on and whether they 
are moved from one appendix to the other.
    Mr. Pombo. You said that it transcends science and there 
are other issues that we take into account. That seems like 
that is a dangerous position for us to take, because we have 
always taken the position that our decisions are based upon 
good science, that that is the basis for all of our decisions 
that we make is sound science.
    It is my understanding from what I have read that the 
science does not necessarily support the position that we have 
taken, so therefore we look at other issues that transcend the 
science.
    Unfortunately, that sounds like some of the things we 
accuse other countries of doing, is that when the science 
doesn't support what they want to do, they look at other 
issues. And I think that that is kind of a dangerous position 
for us to take.
    Mr. Fox. Maybe I gave a misimpression with the words 
``transcend science,'' Mr. Chairman, and if so, let me explain 
a little bit further. What I meant is the status of the 
populations is fairly generally accepted in the scientific 
community. However, the human institutions that have to deal 
with the harvesting and trade and control and regulation are 
also important in determining whether or not a sustainable use 
of a resource can be made, and those are the other elements of 
the equation that have to be considered in terms of taking a 
position on an issue.
    Ms. Lieberman. Let me just add to that, in addition, 
particularly when we were at the last CITES conference, the 
U.S. worked very closely with other countries in developing new 
CITES listing criteria, which includes science, but also 
includes information on illegal trade and enforcement controls. 
And particularly in our evaluation of the listing proposals and 
in review of the status of the whales, in addition to the 
population status information and in addition to the 
International Whaling Commission recommendation, there were a 
large number of issues pertaining to illegal trade in whale 
meat that we have evaluated. While that is not science in the 
sense of evaluating peer reviewed literature of the status of 
the species, this information is very important.
    There is also a report that has been released by World 
Wildlife Fund, TRAFFIC, as well as some U.S. Government 
information that this is a continuing problem that would put 
other whale species at risk if any commercial trade were opened 
in whale meat.
    So that is just an example of other types of issues we 
really have to take into consideration, because CITES is 
dealing not just with looking at population status but with 
trade issues as well.
    Mr. Pombo. Well, thank you. I have a few more questions 
that I would like to submit to you, and I will do that in 
writing with the promise that I will get an answer back fairly 
soon.
    Mr. Barry. The only point I would make is that a large 
number of folks who would be the logical people to immediately 
respond to your request are going to be in Zimbabwe with you, 
in which case we can perhaps give you an informal answer over 
in Zimbabwe and then followup on it with a formal response when 
people return from the conference.
    Mr. Pombo. As long as I can get my letter answered with 
some of the questions that have been raised, it would help a 
great deal.
    Mr. Barry. We will make every effort to respond as quickly 
as we can, and we may be able to give you a very, very prompt 
response with the people remaining behind who won't be at the 
conference. But I just wanted to point out that some of the 
people with the key response would be over at the CITES 
conference in Zimbabwe.
    [The information referred to follows:]
    Mr. Pombo. Well, thank you very much. I appreciate you 
coming in, the testimony, the answers to the questions. This is 
an extremely important issue that I know consumes a huge amount 
of all of your time, and is very complex at times. And I 
appreciate you coming down and trying to fill us in as much as 
you can at this point as to what some of the outstanding issues 
are.
    I do know that there are some very deep concerns that 
people have about what direction we are going and what message 
we should be sending to the rest of the world, and the United 
States plays a very important role in all of that. So I look 
forward to working with you over the next few months and 
hopefully will have some positive steps. Thank you very much 
for coming in.
    The hearing is adjourned.
    [The information referred to may be found at end of 
hearing.]
    [Whereupon, at 3:08 p.m., the Subcommittee was adjourned.]


 OVERSIGHT HEARING ON RESULTS OF CONVENTION ON INTERNATIONAL TRADE IN 
           ENDANGERED SPECIES OF WILD FAUNA AND FLORA [CITES]

                              ----------                              


                        THURSDAY, JULY 17, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
Room 1334, Longworth House Office Building, Washington, DC, 
Hon. Richard Pombo, [member of the Subcommittee] presiding.
    Mr. Miller. We are going to begin. I ask unanimous consent 
that Mr. Pombo of California sit with the Subcommittee and also 
be allowed to chair the Subcommittee. Hearing no objection, so 
ordered.

 STATEMENT OF HON. RICHARD POMBO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Pombo. Thank you, Mr. Miller. This one will go down in 
history, I am sure.
    I would like to start off this morning by thanking the 
Chairman of the Subcommittee, Chairman Saxton, for scheduling 
this hearing. I felt it was important, and I am sure that Mr. 
Miller felt that it was important that we have a followup 
hearing on the CITES convention, also to thank Chairman Young 
and Chairman Smith for their role in raising the visibility of 
CITES in establishing the importance of that within the 
congressional delegation within the committees that they chair, 
the importance of us participating in that event.
    I would also like to thank Don Barry of the Fish and 
Wildlife Service for the job that he did in Harare. I felt that 
he did an excellent job. He fulfilled his responsibilities the 
best under the circumstances I think the best that he could.
    I think that there were a lot of issues that were on the 
table, a lot of things that we had to deal with. He was 
extremely easy for me to work with even though we did disagree 
at times on issues, but I felt that he kept us informed and he 
did a fantastic job of representing the United States.
    Also, the embassy officials in Harare, I believe, did a 
fantastic job under the circumstances with such a large 
delegation coming from the United States in fulfilling their 
commitments and their responsibilities.
    This was the first international convention that I had the 
opportunity to attend, and I found it in many ways educational. 
I found it exciting. I found it very informative and in some 
ways, I found it disturbing.
    I found it exciting to see the different nations trying to 
work together, trying to work out what I believe was an 
extremely important agreement in representing their nations and 
trying to protect their endangered species. I went with the 
idea that we would learn something about endangered species in 
other countries and learn how they are managing their wildlife 
in other countries. That part of it was very educational. I 
believe that there was a lot for us to learn from some of these 
other countries about sustainable use. There was a lot for us 
to learn about the value of wildlife and how once you place a 
value on that wildlife to the people, how they treat it very 
differently than if there is no value.
    I found that very interesting. I know that I personally 
learned quite a bit from that, but I also did find it 
disappointing in some aspects because I was disappointed to see 
the U.S. not in the position of taking a lead role in 
developing new ideas, in developing, I guess, the new era of 
how we care for wildlife, how we care for endangered species, 
and in the future, I look forward to working with the Fish and 
Wildlife Service and working with the Administration in 
beginning to start that dialog and beginning to look toward the 
future.
    We have done a few things in this country in recent years 
that I believe are a step in the right direction that are a 
positive direction for us to go, and I think we need to expand 
upon that. In looking at the way that some of the other 
countries are beginning to deal with their wildlife management, 
I think that is a very positive direction to go, and i think 
that we really do need to look at that in terms of how we are 
going to deal with some of our internal problems and domestic 
problems as well.
    I am looking forward to the hearing. I appreciate you being 
here. At this time, I would like to turn to Mr. Miller.
    [The statement of Mr. Pombo follows:]

 Statement of Hon. Richard W. Pombo, a Representative in Congress from 
                        the State of California

    First let me thank Chairman Saxton for scheduling this 
hearing, and for his ongoing interest in CITES, which has 
increased Congressional awareness of this important 
international agreement. I would like to thank also Resources 
Committee Chairman Young and Agriculture Committee Chairman 
Smith, who recommended to Speaker Gingrich that I join the 
United States delegation as an observer.
    The United States should work with the clear majority of 
world opinion by supporting the range states in sustainable use 
of their indigenous natural resources. We should support 
wildlife management based on good science, and allow self-
determination within the guidelines of proper resource 
management.
    The Convention on International Trade in Endangered Species 
(CITES) Tenth Conference of the Parties (COP 10) has endorsed 
an important first step toward recognition of sustainable 
utilization in management of the African elephant population.
    The bright light of international scrutiny will now be on 
Zimbabwe, Botswana and Namibia. If they continue to carry out 
wildlife management in a responsible manner, then the new CITES 
policy will be a success for both people and the animal 
population.
    This is the second oversight hearing we have held on CITES. 
The Resources Committee will continue to work with the Fish and 
Wildlife Service to ensure American cooperation with the new 
policies endorsed by CITES.
    I would like to include as an addendum to my statement the 
opening address to the CITES convention, which was delivered by 
Zimbabwean President Robert Mugabe. It is a thorough review of 
the wildlife conservation measures underway there.

    Mr. Miller. Thank you and I want to join Mr. Pombo in 
commending our delegation. Don, I think you did a great job in 
leading our delegation and to Marshall and to Sue, the hours 
you people spent trying to hold this thing together and to 
negotiate and to gain support for many of our positions, I was 
quite amazed at the amount of time you spent helping other 
nations in formulating some of their concerns and their 
positions, and I think it was impressive that you were doing 
that--very, very long hours, over--Richard and I were there a 
few days. You were there a couple of weeks and we saw you at 
the end of the process and I was amazed that you were all 
vertical, but you were, and I think you did a wonderful job in 
representing our position. I think it is also fair to say that 
our position wasn't easy to do that.
    One, we have become the voice in some cases, it appeared to 
me, for nations that were uncomfortable putting forth positions 
and yet new positions should be put forth. We were in some 
cases the organizing principle around which other nations could 
gather and try to give rise to concerns. We also brought with 
us a very strong conservation ethic from this Congress, from 
the people of our country, and it is pretty clear after 
attending this conference that in a number of regions of the 
world, that that is a clash, and that is a flashpoint, but I 
also think you handled the diplomatic part of that very, very 
well in the sense that there were nations which we oppose their 
positions or they opposed ours, but I don't think we ended up 
being enemies at the end of the conference, and that is 
important, because I think one of the things that Congressman 
Pombo and I learned is that this conference has real 
consequences. This is not an abstract conference, as we will 
now see with the considerations around the elephants.
    There are a lot of consequences that will flow from the 
prevailing position of the downlisting in the three countries. 
Some of those consequences will be a surprise to all of us. 
Hopefully, most of them will be all beneficial, but there is 
also great potential for negative consequences to that, and I 
think given our agenda, you did an exemplary job.
    I would just like to say on the elephant question that I 
think that it was clear at the conference in talking to 
representatives of other nations and to you, to our delegation, 
that clearly Zimbabwe, Namibia, and Botswana have done a 
tremendous job in rebuilding the herds of the elephant 
populations that they have. Our own tours into the countryside 
brought home many of the issues that that raises for those 
nations. I think many issues that most people in America have 
never given thought to in terms of trying to live in a country 
with an expanding elephant population, but I was also 
interested to know that there was unanimity within Africa about 
how to handle this, and clearly, many African nations voted 
against the downlisting, as did other nations in other parts of 
the world with elephant populations because of this concern 
over--as legitimate as these proposals were for downlisting, do 
they spur other activities in terms of black market, illegal 
trade, and not so much what happens in these three nations that 
have a fairly decent infrastructure in dealing with elephant 
populations and with poachers and with illegal trade, but I 
think also clearly what happens in the other nations that 
really don't have that infrastructure, have very small 
populations, and it is not a question of winning a prolonged 
war with poachers. It is a question of whether they can survive 
a very short intensive poaching incident, and I think that that 
became clear when you listened to a number of the speeches on 
the proposal by other African nations and other nations with 
elephant populations, that their concern that there is a 
spillover factor in endangering their elephant populations.
    I was stuck with the sense that this proposal for 
downlisting, while certainly understandable, was a little bit 
of the cart before the horse here, and one of the things that 
maybe we can discuss this morning is really, now what do we do 
about our efforts to help these other nations and the three 
nations in the anti-poaching area.
    We do spend some money in that region, but clearly, this 
downlisting is going to be scrutinized now for many years, and 
hopefully, it will go right. It will have the positive 
consequences that the proponents have argued for, but I think 
that will only come about with diligence on our part and other 
developed nations who have some resources to share with these 
nations to try to develop the infrastructure against illegal 
trade and against poaching. It simply will not be enough for us 
to condemn elephant trade, to condemn trophy hunting, to 
condemn poaching. There will be enough condemnations of that to 
go around. What is going to be needed is some resource and 
expertise, some technical assistance for many of these nations 
that became very clear to us don't have those resources, and I 
am not sure it takes a lot. I am sure we are talking about 
massive amounts of resources, but clearly within the developed 
world, we should have a period to do that.
    I would hope we would also explore some alternatives in 
terms of Debt-for-Ivory that we have had under discussion, 
along the lines of the Debt-for-Nature.
    Some of these nations do have significant stockpiles, some 
have relatively small stockpiles, some of them have debt, and 
whether or not there is an arrangement either for us or for 
multilateral institutions to work out some kind of swap there 
so that we can transition into this delisting and the 
ramifications in terms of that market so that we don't explode 
onto the market such massive amounts of ivory, and then that is 
the expectation, and failure to meet that drives value in 
poaching beyond what the downlisting and the conservation plans 
of those nations would allow for.
    Those are a couple of concerns that I have and observations 
that I have. It was a fantastic experience to watch this 
conference work. I must say at times, in a parliamentary sense 
from rules of order, it made the Congress look like a well 
oiled machine.
    There were some rulings from time to time that just baffled 
me, but I found out later I wasn't the only one baffled. 
Actually, I found that sometimes the majority was baffled which 
then baffled me why a majority would put up with such a ruling, 
but in any case, it was, I think, a difficult conference in 
terms of sorting out these issues, but I again think that we 
can be very proud of our delega-

tion and the manner in which you handled it and the results 
that were derived overall from the conference. There may be 
some things that we disagree with, but there are also some 
things that you also say maybe require some very close 
observation to see whether or not they work or they don't work, 
so thank you again for your service and your expertise and the 
talent that you were able to assemble across all of these 
agencies to provide support for our position.
    [Statement of Hon. George Miller follows:]

Statement of Hon. George Miller, a Representative in Congress from the 
                          State of California

    The 10th Conference of the Parties to CITES held in 
Zimbabwe last month was, for many, about elephants and elephant 
conservation. Those of us who attended the meeting know that 
the debate was about much more than whether to allow legal 
trade in elephant ivory for the first time in almost a decade.
    This debate was about land use and expanding populations. 
It was resource use and rural development in very poor 
countries. It was about methods for wildlife management and 
protection and whether, as President Robert Mugabe of Zimbabwe 
put it, ``Wildlife must pay its way to survive.''
    There was little question that Zimbabwe, Namibia, and 
Bostwana have managed their elephant populations well. But we 
cannot ignore the very critical issue of the fate of the 
African elephant across the continent, and the potential 
impacts of downlisting and resumption in trade.
    History tells us that, in the case of any wildlife trade, 
it is the illegal trade that can quickly overwhelm conservation 
efforts. Blackmarket sales--regardless of whether the product 
is a traditional medicine made from tiger bone in Asia or a 
ceremonial dagger of rhino horn in the Middle East are the real 
threats. Ivory is a case in point.
    Contrary to some perceptions, African nations--including 
some very poor nations that perhaps could profit by allowing 
expanded trade in elephants--did not support the southern 
African proposal to downlist their elephants and allow limited 
trade with Japan. Central and western African nations, whose 
elephant herds were most severely decimated by the illegal 
ivory trade prior to the 1989 ban, expressed great concern 
because of their lack of funds for conservation and anti-
poaching efforts. Opening the legal trade again, control 
efforts aside, may well open the door to a renewal of the 
blackmarket trade that caused the slaughter of the 1980's, and 
many of these countries would be all but powerless to prevent 
it.
    Niger, with only a few hundred elephants remaining, opposed 
the southern African nations' proposal, as did Ivory Coast, and 
Chad, with a similar number of elephants. So did Cameroon, with 
about 5,000 elephants remaining inside its borders, and 
Tanzania, whose number of elephants dropped from 109,000 in 
1977 to 29,700 in 1989. The delegate from Ghana, where fewer 
than 500 elephants escaped the last round of ivory wars, begged 
for more time, noting that ``all our poachers know the 
downlisting is coming.'' His plea went unheeded.
    The crucial question for the next few years will not be, 
``How are the southern African elephant populations faring 
under the resumption of trade in elephant parts?'', but rather, 
``How are the rest of Africa's elephants holding up?'' Is Ghana 
facing another ivory war over its remaining few hundred 
elephants? What about Congo, and Chad? Can they hold their own 
under the potential onslaught?
    The parties to CITES recognized this problem, and 
overwhelmingly approved a resolution establishing strict 
conditions for the non-commercial sale and disposal of the 
ivory stockpiles in warehouses across the continent, in 
countries where the ivory wars were lost or continue to be 
fought. Revenues from those sales must be deposited into 
conservation trust funds and used by the nations to fund 
conservation and community-based organizations and development 
programs.
    These nations will need our support and our assistance to 
prevent the downlisting decision from becoming a license for 
the resumption of elephant slaughter. It is not enough for 
Americans and others to condemn the elephant trade or trophy 
hunting, and then offer nothing in its place that offers some 
possibility of economic development in rural Africa. I have 
begun discussions with international conservation 
organizations, the Administration, and others to develop an 
amendment to the African Elephant Conservation Act to provide 
desperately needed funds for those conservation and enforcement 
programs in those countries where they are most urgently 
needed.
    We have already begun discussions on a Debt-for-Ivory 
program. Based on the successful Debt-for-Nature model, this 
approach could provide much needed conservation funds for 
countries like Tanzania, which holds more than $5 billion in 
international debt, and has an estimated ivory stockpile of 
more than 50 tons. Tanzania is just beginning to develop its 
wildlife conservation programs, and financial support of this 
type could mean the difference between success and failure in 
their efforts. Even nations with relatively small ivory 
stockpiles, like Zambia's 4 tons, could benefit from this 
program. Since the United States holds a small portion of the 
overall bilateral African debt, a U.S. program would have to be 
coordinated with those European nations that also hold African 
debt, and we've spoken with international conservation 
organizations about a multinational effort along these lines.
    We are also investigating other funding sources, such as 
the World Bank, that will work with the governments, the NGO's 
and the rural people of these nations to promote policies that 
do not require the permanent sacrifice of wildlife for short 
term economic benefit.
    Finally, I want to commend Mr. Barry and the other members 
of the U.S. delegation to the CITES conference for their hard 
work and diligence under less-than-ideal conditions. Elephants 
were not the only issue--and certainly not the only 
controversial issue--of this convention. Marine fish, whales, 
sea turtles, mahogany--all were important concerns for our 
delegation and many other nations attending the CITES 
conference. The U.S. team at CITES was universally respected 
for its working knowledge of the convention and its expertise 
in the species under discussion. I'd like to take this 
opportunity to thank the members of our delegation on behalf of 
this Committee and the Congress.

                                ------                                


       Statement of His Excellency The President: CDE R.G. Mugabe

    Honourable Vice Presidents Cdes J. Nkomo and S. Muzenda.
    Honourable Minister of Environment and Tourism, Cde C.C. 
Chimutengwende and other Parties to CITES, Honourable Ministers 
of Zimbabwe, The Chairman of the Standing Committee of CITES, 
Ambassador Ahao of Japan, The Secretary General of CITES, 
Ambassador Topkov, The Executive Director of UNEP, Ms. 
Bodswell, Excellencies, Members of the Diplomatic Corps, 
Distinguished Delegates and observers, Invited Guests, Ladies 
and Gentlemen.
    On behalf of the Government, the people of Zimbabwe and 
indeed on my own behalf, it is my pleasure to welcome you to 
Harare. The people of Zimbabwe are honoured and delighted to be 
hosts to this your Tenth Meeting of the Conference of the 
Parties to CITES being held for the second time in Africa. Our 
sister country Botswana hosted the conference in 1983.
    Ladies and Gentlemen, this meeting is being held at a time 
when environmental issues have taken centre stage in all 
international meetings. We are all aware that the World Trade 
Organisation meeting in Singapore grappled with the issue of 
trade and the environment and, in two weeks' time, world 
leaders will be gathered in New York to assess the achievements 
gained since Rio five years ago. Of significance, since Rio, 
has been the coming into effect of Conventions that have direct 
relevance to CITES, such as the Convention in Biological 
Diversity.
    Ladies and Gentlemen, some of the world's plant and animal 
species are threatened with extinction due to absolute poverty 
within third world populations which lead to over-reliance on 
natural resources for survival, especially in the rural areas. 
Other causes are loss of habitat through deforestation, and 
human and animal population pressure; the need to service the 
debt burden in the developing states where natural resources 
are a significant contributor to the Gross Domestic Product; 
and illegal international trade which is now a multi-million 
dollar industry.
    We in Zimbabwe have since established a commitment to 
natural resource conservation as evidenced by the fact that 15 
percent of the country is under reserved forest and National 
Parks and, when one includes the CAMPFIRE areas, about 30 
percent of our mass is under wildlife management. In addition, 
in the last five years, large tracts of farmland have been 
turned into wildlife management areas called conservancies.
    A number of Acts have been put in place to ensure the 
sustainable use and conservation of our biological heritage. 
These include the Parks and Wildlife Act, the Forest Act, the 
Communal Lands Forest Produce Act and the Natural Resources 
Act. Currently, my Government is working on a Biodiversity 
Inventory, Strategy and Action Plan which is funded under the 
Global Environmental Facility arrangement. This will enable 
Government to implement comprehensive programmes for 
sustainable utilization and conservation of our natural 
resources. Zimbabwe is an active participant in environmental 
issues and, since Rio, we have defined our participation by 
adhering to principles that many are familiar with.
    The principles of sustainability and inter-generational 
equity are the cornerstones to our environmental management. I 
am conscious that Conventions such as CITES have been brought 
about in order to protect certain species from extinction. In 
Zimbabwe, the management of our environment and natural 
resources is fashioned to meet the development interests of the 
present generation without jeopardizing those of future ones. I 
am glad to announce that future generations will definitely 
inherit the black Rhino in this country as we are achieving 
positive growth rates in this area.
    The principle of anticipating and preventing negative 
environmental impacts is less costly and more effective than 
correcting such problems. Countries in Southern Africa continue 
to suffer from a colonial legacy of land apportionment between 
the races that has devastatingly caused land degradation, 
deforestation, soil erosion and almost eradicated hitherto 
common species of animals, birds, reptiles and fish. To 
safeguard the future generation's right to resources, we 
believe in environmental impact assessments.
    For the last few years, no development has been allowed to 
take place without environmental impact assessments. In the 
protected areas, where most of our wildlife of fauna and flora 
are found, any development must be preceded by impact 
assessments. In our resort town of Victoria Falls, we have 
joined with our neighbours in order to look at the 
environmental impacts on present and future development in that 
area.
    My Government is working with agencies such as the World 
Bank and other donors to re-plan all our parks and CAMPFIRE 
areas. A cornerstone of the new plans is the accompanying 
environmental impact assessment of the areas. It is this 
assessment that becomes our compass in the management of 
different species.
    In terms of species, we are producing specific management 
plans on a periodic basis. During your stay, I invite you to 
look at management plans related to the crocodile, ostrich, 
black rhino, elephant and other species. In addition, I hope 
you can visit some of the areas where these species are found. 
I am sure you will give sympathy to our struggle to produce 
better predictive environmental impact assessments once you see 
the different qualities of natural resources found in communal 
areas, commercial farming areas, CAMPFIRE areas, parks and 
forestry areas and conservancies.
    It is well known that public participation is an essential 
element of an effective environmental management process. We 
know that where the public at large has vested interest in 
preventing environmental harm, the results are vastly improved.
    My Government has introduced the CAMPFIRE concept--the 
Communal Areas Management Programme for Indigenous Resources. 
Our people, through their representative and democratically 
elected councils are now able to participate in wildlife 
management. They now understand the value which they derive 
from better environmental management principles since they 
associate wildlife and other natural resources with their own 
socio-economic development.
    Sustainable utilisation of resources in this country is not 
new. It is not strange that our people and the Government have 
to relearn their past in order to catch up with the modern 
world. Conservation of natural resources is closely linked to 
family totems. Where a family's totem relates to an elephant, 
and many totems in Zimbabwe are, the elephant becomes a sacred 
animal for that family. Thus totems are linked to fish, birds, 
crocodiles, animals, and other natural resources. However, in 
all cases, there was never a denial to derive an economic, 
social and cultural value from the species.
    The CAMPFIRE concept is a philosophy by my Government that 
allows communities to derive benefits from good management of 
natural resources. It is a philosophy which is rooted in our 
strategy to uplift the standard of living of the rural poor. 
Natural Resources provide the economic base for these 
communities. Land, soil, water, wildlife, fisheries, forests 
and other resources are better managed by communities that have 
embraced the philosophy of CAMPFIRE. I, personally was 
heartened by the petitions of support we received from all over 
the world when some among us here threatened the programmes run 
under CAMPFIRE which are funded by many donors. I salute the 
members of the U.S. Congress who constitute the Black 
Congressional Caucus who have signed petitions of support for 
the CAMPFIRE programmes. The basic philosophy is about humans 
sustainably utilising their natural resources for present and 
future generations.
    My Government continues to ensure that our domestic law 
must recognise and respect international laws captured in the 
environmental conventions to which we are party. CITES is not 
an exception. In many respects, because of our concern for 
intergenerational equity, we have listed species on our own 
endangered list while they are not considered so by CITES. We 
believe that CITES needs to update its philosophy in line with 
the post Rio Conventions concepts.
    My Government is supportive of maintaining the stance that 
the Organisation of African Unity has taken recently on the 
issue of sustainable development and sustained economic growth 
in the post-Rio era. Any convention that militates against this 
is depriving parties, especially the developing countries, of 
the right, access ownership and utilisation of the resources.
    May I, however, hasten to say that we are undertaking the 
task of protecting our natural resources especially of wildlife 
at great expense and sacrifice. The mobilisation of the army, 
police, national parks scouts/rangers to guard against poachers 
is costly. In Southern Africa, wildlife is found in arid and 
semi desert regions. Water for these animals is pumped at great 
cost from underground sources. Elephants, especially because of 
their huge bodies, consume large amounts of this underground 
water and, we believe, every species must pay its way to 
survival. We believe that the management strategies we have 
devised, if given a chance, will enable most species to 
survive.
    We have benefited from contributions given by donor 
counties, Non-Governmental Organisations (NGOs) from here and 
abroad, and more especially from our neighbouring countries 
which have equally contributed money to protect wildlife. Our 
Department of Wildlife Management has been strengthened by the 
creation of a fund that is dedicated to financing the 
conservation and protection of wildlife. All proceeds from 
wildlife activities in Parks Estates go to this fund. In 
addition, some funds are voted by Parliament to boost the 
conservation effort of the Department. I am confident that 
these structural changes have assured a sustainable funding 
mechanism for the conservation and protection of wildlife in 
Zimbabwe.
    We believe that a well monitored, evaluated and ecosystem-
managed habitat can support our philosophy of sustainable 
utilisation. And we invite the international community to 
cooperate with us and give assistance where possible so that 
our people can become beneficiaries of their natural resources.
    There must be encouragement of sustainable utilisation and 
development for those whose policies and actions uphold 
scientifically accepted standards, while penalising those that 
abuse the environment. To refuse to accept the principle of 
differentiated responsibilities will mean doom for the 
international environmental movement and certainly disaster to 
natural resources covered by CITES Convention.
    As the world becomes a truly global village, the division 
between the developed and the non developed countries is 
sharpening. The environment and trade issues are indeed at the 
centre stage. This CITES meeting is significant because it is 
tackling the issue of the environment as it relates to trade. 
For us in developing countries, our natural resources provide 
hope for our great leap forward. Impoverished communities 
depend on the sustainable utilisation of their resources.
    Ladies and Gentlemen, participants to this Conference will 
be very busy looking at over 80 proposals and over 60 
resolutions. However, as you are talking about fauna and flora 
which we have in abundance in all corners of the country, I 
invite you to visit our wildlife areas, as well as Victoria 
Falls for relief joy and relaxation.
    Ladies and Gentlemen, I wish you fruitful deliberations and 
a pleasant and enjoyable stay in Zimbabwe. It now gives me 
great pleasure to declare this, the Tenth Meeting of the 
Conference of the Parties of the Convention in the 
International Trade of Endangered Species of Fauna and Flora 
officially open.
    I thank you.

    Mr. Pombo. Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. I think I am the only 
one in this discussion that didn't attend the conference, but I 
am intrigued by it, and I am intrigued by sort of the 
directions of the questions, and that is, why did America, the 
United States proposals all fail, and why did we always vote on 
the losing side.
    That doesn't bother me as much as how do you change it, and 
unfortunately, I have to leave this meeting to go to a 
discussion on sustainable development, but what I am concerned 
about is the fact that if we are going to have global security, 
and I really think this is in the big picture of things, the 
whole balance between the environment and the natural animals 
in the environment and essentially the need to sort of harvest 
natural resources for local economy, then how do you change 
that?
    I am a former Peace Corps volunteer, so it is sort of that 
economic conversion from the culture of poverty to what I like 
to think as you turn the hunting of animals into the 
photography of animals, hunt them with a camera and not with 
something that destroys them and develop markets there.
    What I am getting at and I would like perhaps Mr. Barry to 
talk about that is, it seems to me that in the NAFTA 
discussions and everything else, that it always comes back to 
that these countries just don't have the infrastructure for 
enforcement, don't have the capability of doing the kind of 
educational opportunity to show that there is a value added for 
watching wildlife rather than marketing wildlife, and that we 
have that capacity in this country, and we have learned it.
    In fact, I am often quoted as saying, and I didn't make it 
up; Megatrends wrote it, that there are more people watching 
wildlife in America than all of the professional sports in this 
country, that it is the biggest attraction. How do you convert 
that into countries that have exotic wildlife into 
understanding that there is more money to be made by 
appreciating them rather than selling parts of them or the 
animal as a whole.
    So perhaps what we need to focus on domestically is how we 
assess what our educational opportunities are in this country. 
I think that is the biggest undersold asset that America has, 
and the ability to bring emerging managers, mid-level managers 
in governments from all over the world, and in entities of 
community-based organizations that might be interested to this 
country to really utilize what we have already existing here, 
but we have not focused on making that available to the 
international community.
    We have done that in the military. We have the 
International Military Education Training Program, and we bring 
all of the top military officials. The only requirement is that 
they have to speak English, but they are going to the Naval 
post-graduate school in Monterey, they are going to Annapolis, 
they are in our best military training schools to learn 
essentially management, assessment and management issues, and 
why did we do that? Because these are our allies, and if we are 
going to try to do a problem-solving, we need everybody to be 
on the same page and same team.
    Now, if we can do that about war, why can't we do that 
about environment? I think that that is what we need to develop 
in this country, which will lead then back into when you have 
these conferences, the parties to the treaty which, by the way, 
I think these treaties are--we ought to spend much more time in 
knowing about them. I think the law of the seas, the Montreal 
Protocols on Global Warming, this treaty is a kind of thing 
that we ought to, as this country, be more active in utilizing 
our educational opportunities here to essentially ratchet up 
the understanding and, I think, the economic that comes 
therefrom, so that it doesn't become so much of an enforcement 
problem which can be violated so easily.
    That is sort of my thinking, and I hope that as you focus 
on this that we can begin to think where we go from here. Thank 
you, Mr. Chairman.
    Mr. Pombo. Thank you. At this point, I would like to ask 
unanimous consent that all members' statements be included in 
the record at this point.
    [Statement of Hon. Jim Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Good morning. The purpose of today's hearing is to discuss 
the outcome of the Tenth Regular Meeting of the Parties to the 
Convention on International Trade in Endangered Species of Wild 
Fauna and Flora, commonly known as CITES. The Convention this 
year was held from June 9 through the 22nd in Zimbabwe.
    By way of background, CITES entered into force on July 1, 
1975. Currently 136 countries, including the United States, are 
parties to the Convention. CITES is the only global treaty 
whose focus is the protection of plant and animal species from 
unregulated international trade.
    I know that our witnesses have firsthand knowledge about 
how the United States developed its positions on CITES; what 
interagency review is necessary for these CITES proposals; and 
what role Congress should play in developing future proposals. 
I am looking forward to hearing the outcome of the Convention.

    [Statement of Hon. Don Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, the Convention on International Trade in 
Endangered Species of Wild Fauna and Flora (CITES) was held in 
Harare, Zimbabwe, one month ago.
    At this Tenth Meeting of the Conference of the Parties, and 
the past two CITES Conferences, African elephant populations 
were the focus of much debate. At this Conference of the 
Parties, Botswana, Namibia, and Zimbabwe offered proposals to 
downlist their elephant populations to Appendix II. These 
countries have done an outstanding job of managing and 
conserving their growing populations of African elephants. 
Regrettably, their efforts are expensive and these three 
countries sought an opportunity to finance future conservation 
by selling ivory obtained from confiscated, culled or naturally 
dying elephants.
    What made this Conference different from any previous CITES 
Conference was the overwhelming support of nations to vote to 
downlist these three populations to Appendix II. While I view 
this as a positive step, I am interested in knowing why the 
U.S. Delegation voted against all of the elephant downlisting 
efforts. I also want to hear what position the Department of 
Interior will take now that the proposals have been adopted by 
CITES.
    This historic downlisting did not come without 
stipulations. Parties to CITES had concerns with enforcement 
controls used in Botswana, Namibia, Zimbabwe, and Japan, as the 
only importer. Prior to any trade in ivory, these three African 
countries and Japan must resolve their enforcement problems and 
submit to independent verification of trade controls. The CITES 
Secretariat, along with TRAFFIC International, will monitor 
legal and illegal trade through an international monitoring and 
reporting system.
    There were many other proposals offered at this CITES 
meeting that are also of interest. Norway and Japan proposed to 
downlist various whale species, all of which failed. Cuba 
wanted to downlist its population of Hawksbill turtles, which 
also failed.
    The U.S. proposed a Marine Fish Species Working Group, 
which failed to get CITES support. Bolivia and the U.S. 
cosponsored a proposal to list bigleaf mahogany on Appendix II, 
which also failed. Instead of the Appendix II listing, the 
Range States agreed to list their respective populations in 
Appendix III.
    What is clear from this Conference is that the majority of 
CITES Members support the sustainable use of plants and animals 
and that the U.S. Delegation was on the losing side of most of 
the major decisions made in Harare. I am hopeful that we can 
learn today how the U.S. positions were formulated and how the 
U.S. can regain its international leadership role prior to the 
Eleventh Meeting of the Conference of Parties in Indonesia.
    Finally, I want to express my sincere appreciation to 
Congressman Richard Pombo. Richard was our Republican 
Congressional delegate to CITES and he did a superb job of 
representing our Committee and our Nation at that Conference. 
It is not an easy task to travel thousands of miles to attend 
one of these international conferences, and I want to thank him 
for all of his personal sacrifices.
    I am anxious to hear his assessment of the outcome of this 
meeting and look forward to also hearing the testimony of Mr. 
Don Barry of the Department of the Interior who was the head of 
the U.S. Delegation to the CITES Conference.

    Mr. Pombo. The first panel, our only panel, Mr. Donald 
Barry, who is the Acting Assistant Secretary for Fish and 
Wildlife and Parks, Department of the Interior, who is 
accompanied by Mr. Marshall Jones, who is the Assistant 
Director for International Affairs. They are also accompanied 
by Dr. Susan Lieberman, Dr. Peter Thomas, and Dr. William Fox.
    Mr. Barry, you can give your statement. Because you are the 
only panel, I will be generous with the time, but I would give 
you the floor.

 STATEMENT OF DONALD J. BARRY, ACTING ASSISTANT SECRETARY FOR 
    FISH AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR

    Mr. Barry. Thank you, Mr. Chairman. I would just like to 
ask permission to have my entire written statement entered into 
the record. I would prefer to just offer some general 
observations as an alternative statement at this time.
    Mr. Pombo. Without objection, it will be included.
    Mr. Barry. Let me first thank both you and Congressman 
Miller for your very kind remarks. I find myself sort of 
wishing this could be a permanent Kodak moment. It is likely to 
be the only time in my career when I am likely to be 
complimented by both sides of the aisle, so I appreciated the 
opening remarks from both of you.
    Let me first say that I have had a pretty long and 
fortunate career in government. I have had the good fortune of 
being in many places and having a chance to work on many 
things, but as sort of small-town and schmaltzy as this sounds, 
I don't think I have ever experienced something as awesome as 
representing the United States at a major international 
conference.
    The feeling of responsibility that comes down on top of 
your shoulders when you are representing your country in an 
international forum like that was, I won't say crushing but you 
certainly felt like the person who carries the flag in the 
Olympics and you don't want to trip on behalf of your country. 
For me, it was probably what I would consider the privilege of 
my lifetime to represent the U.S. at CITES.
    I also would like to just offer my personal thanks and the 
thanks of the members of the American delegation for the 
courtesy that both you and Congressman Miller and the Committee 
staff folks accorded us. Having worked for the old Merchant 
Marine and Fisheries Committee staff, having gone on a number 
of CITES conferences as a congressional staff observer, in all 
honesty, I was concerned about how we would be able to balance 
both the demands at the conference and also be able to provide 
the support that we wanted to provide to you folks.
    The entire group that came to the conference from the U.S. 
Congress were incredibly low maintenance, and you folks were 
exceptionally easy to work with. We appreciate your interest, 
quite frankly. One of the problems that we have is getting 
people to care and having an opportunity to talk to people in 
Congress and to make them aware of the complexities of these 
issues, so we appreciate congressional interest.
    We were delighted to have you on board and found it a 
really easy fit, which was sort of the best of all worlds. I 
just wanted to thank you all for being as accommodating as you 
were.
    Let me just offer one general observation. I think it is 
too easy to fall into sort of a scorecard mentality when you 
come out of a conference like this and say, well, the U.S. won 
or lost this many, so it must have been a bad conference or a 
good conference.
    I think that is a way too simplistic way of looking at it, 
and I would say that overall, we won some votes that we 
desperately wanted to win, we lost some votes that we were very 
disappointed to lose, but overall, I probably would have given 
this particular CITES about a B rating, maybe a B-plus, 
somewhere in there in terms of the overall level of issues that 
were on the table.
    The U.S. actually did very well overall on a lot of the 
smaller issues that don't capture the attention necessarily or 
the headlines, but are critically important for helping to make 
the CITES treaty work more effectively. The U.S. had, I think, 
nine different resolutions or papers on interpretation of the 
convention which were adopted. There were two new working 
groups that we proposed which were rejected, and then two other 
proposals that we had on the implementation side of things 
which were sort of deferred or referred back to one of the 
committees, but we did have nine resolutions that we set 
forward that were adopted.
    Two out of our three plant proposals were adopted. We 
didn't win on mahogany, which was a very important one, but 
quite frankly, that would be an example of where I would say 
that we ended up in as good a position if not a better position 
as a result of the conference, even though we didn't get it on 
an Appendix II listing, which we originally started out to get.
    I think the eventual outcome, the resolution that was 
worked out on mahogany with Brazil, with Bolivia, is actually 
from the perspective of the people who took the lead on that 
issue a better deal, a more long-term enhancing deal for 
mahogany than we could have gotten with an Appendix II listing.
    I don't think we would have gotten to that point if we 
hadn't pushed it, so are we disappointed we didn't get Appendix 
II listing for mahogany? Well, we would have preferred to have 
played that ball down the fairway a little bit further, but on 
balance, I think we have a new opportunity here which long term 
may be even better from the perspective of mahogany, so I think 
on a lot of these issues, we have to look beyond just the 
scorecard keeping of whether we got something on an appendix or 
not, and not lose sight of the fact that the reason we are 
interested in these issues is to promote the conservation of 
the species. If we can get there some alternative way, we ought 
to be strongly supportive of that and not care on how we get 
there.
    On some of the animal proposals, we were pleased with the 
outcome of the question involving the white rhino. We believe 
that the right decisions were made in rejecting the whaling 
proposals.
    There was an excellent paper, probably the real sleeper of 
the conference, and this is something that I would just 
respectfully urge the Members of the Congress to give some 
additional thought to.
    The real sleeper of the conference, I think, of all the 
things that we worked on was a paper the Fish and Wildlife 
Service had prepared somewhat in obscurity on invasive species, 
alien species, and what amazed us was the unbelievable response 
we got worldwide with countries saying, we have this problem, 
too. This is a serious, serious problem, and the support that 
we received ranged from Cuba to any number of countries around 
the globe.
    I think what it points out is that there is a growing 
recognition of the problem of alien species, and I am not 
talking about the men in black kind of alien species. I am 
talking about zebra mussels and things like this, species that 
get established through trade and then have horrific local 
environmental problems and what it suggests is that this is an 
issue that is still out there. It is growing, it is worldwide, 
and the response that was generated to this one paper suggests 
that there is a lot more work for us all to do.
    On sea turtles, I think we had the right decision, the 
right outcome. There was a major debate, and I think it was a 
very fair and open debate primarily for commercial purposes, 
which is the key standard under the convention, whether you 
should allow trade in Appendix I species if it is primarily for 
commercial purposes. We were very pleased with the outcome of 
that issue. I know that it was a very tough matter for the 
folks to resolve. I thought Namibia did an excellent job in 
raising the issue, but we felt that it was one of the most 
significant issues addressed in the conference. We were very 
pleased at how that came out.
    I think we also made good progress with regard to 
international trade in bear parts. We did not get everything 
that we had wanted or other people had wanted perhaps, but I 
think we ended up coming out of the conference with an 
excellent foundation for doing more in keeping this issue 
alive, and more importantly, coming back at the next conference 
and saying, OK, we tried an alternative approach to work with 
the countries that have been responsible for the consumption of 
bear parts, illegal trade; if it still is a significant problem 
at the next conference, then I think it is fairly clear that we 
have to prepared to take more drastic action, so I think the 
whole bear parts issue is not going to go away, but I think 
there is an opportunity for us to make some real progress, 
especially with the traditional medicine communities, to try to 
begin to turn the illegal trade around.
    The toughest issue probably clearly for the delegation was 
on elephants. We did not succeed in preventing the downlisting, 
but even on that one, I think that if there was going to be a 
resumption or at least a green light for resumption in trade, 
the types of conditions and qualifiers that were placed on the 
ultimate approval were the right ones.
    I think they were the right issues to ask and the right 
type of conditions to have, and most importantly, one of those 
conditions was that the countries that would take advantage of 
the one-time sale would end up having to withdraw their 
reservation on elephants which they have maintained since the 
original listing, and long-term, that is a very significant 
step forward.
    I think the elephant outcome would be viewed as a loss for 
the United States, but we tried to approach it in a way that 
left us actually coming out of the conference with a stronger 
position and a working relationship with these countries than 
we had going into it.
    I have to tell you, in particular, I felt that we developed 
some new opportunities that had not previously existed for 
working cooperatively with Zimbabwe. I think the host country 
did an excellent job in trying to manage a conference of this 
size. I think, and it is too bad that Congressman Farr has now 
left, because one of the things that I wanted to respond to 
with regard to his observations on how do we try to work more 
cooperatively with other countries of this sort.
    I explored the possibility right after the vote, 
coincidentally, of looking for an opportunity of expanding a 
cooperative partnership with Zimbabwe and the National Park 
Service and the U.S. Fish and Wildlife Service, but 
particularly focusing on things like park management, and the 
response from the folks in Zimbabwe was exceptionally positive 
and exceptionally high.
    It is one of the things I have talked to the Secretary 
about. I intend to talk to the State Department about it. I see 
a real opportunity here for us to come out of this conference 
and to build some new partnerships that have not existed in the 
past between the United States, the Department of the Interior, 
and Zimbabwe Ministry of the Environment and Tourism. I think 
there is a lot that we can do to assist them with their 
national park program which gets back to Congressman Farr's 
idea of how do we look for ways of assisting some of these 
countries in having a sustainable opportunity for encouraging a 
diverse use of wildlife, including photography and ecotourism 
and all of those things.
    I felt that on balance, even though we ended up having to 
oppose Zimbabwe and Namibia and Botswana on their elephant 
proposals, we have an opportunity now to play a constructive 
role and to work with them cooperatively to see that this new 
experiment with elephant ivory turns out as best it can under 
the circumstances.
    Finally, in the loss column, I would probably put some of 
the marine issues. We did not get the marine fisheries working 
group that we wanted. We did not get sawfish on. We had a 
working group on law enforcement that was rejected, and we also 
ended up withdrawing some proposals regarding turtles and 
rattlesnakes.
    On balance, it was sort of a mixed track record with some 
wins and some losses, but I think that is the one thing that we 
have come to expect with CITES conferences, that it is a 
kaleidoscope of changes. You go in with certain positions and 
you have to sort of read the tea leaves as best you can and 
position yourself to not only influence the outcome of the 
decisions even when you are losing, but also then to be in a 
constructive position to help make things work once the CITES 
conference had made a decision. I think we have to be 
respectful of the decisions that are made at CITES.
    Actually, the only other remaining observation I will make 
and then I will stop, if I had to say there is one thing that I 
really focused on and appreciated in CITES, it is that two-
thirds is a tough vote. These decisions are not made by 
majority vote. It is a two-thirds vote, and I think two-thirds 
was tough for everybody.
    Two-thirds is a very tough vote for Japan and Norway on 
whaling. Two-thirds was a very tough vote for us on mahogany, 
and so what it does, it acts as a bit of a buffer, similar to 
the U.S. Congress with veto overrides and things like this.
    It is a tough vote and you have to have a very good 
position, a very good proposal, and you have to be able to 
communicate your reasons for wanting to do things. Probably in 
retrospect, two-thirds is just about the right standard to 
have, because it makes sure that what you get has a strong 
enough consensus worldwide to make it very clear that this is 
what people want to do with wildlife conservation.
    I will just stop at this point.
    [Statement of Donald Barry may be found at end of hearing.]
    [Summary Report on CITES Conference may be found at end of 
hearing.]
    Mr. Pombo. Thank you. I would agree with one of your 
initial assessments that what is important from this conference 
is not necessarily the scorecard. I think that the United 
States would be making a huge mistake if we looked at it as 
wins and losses.
    I do think that what is important is what we learned from 
it, and if we go into the next conference, that will determine 
how successful this one was, I believe. It is how we go into 
the next one with what we are doing, and how we deal with the 
different issues.
    I think that is probably a more important determination of 
how successful the conference is ultimately will be how we deal 
with what we learned while we were there, and how we deal with 
the results of the particular votes. I think that is probably a 
key to it.
    One of the things that concerns me is how we deal with the 
state representatives, and we had a group of fish and game 
managers, fish and wildlife managers from the different states 
who were in attendance, and they all obviously have a high 
degree of expertise in managing wildlife in their particular 
states in dealing with those problems.
    How do you foresee in the future dealing with the states in 
terms of coming up with positions? I guess I would like to see 
them more included in how we come up with the decision.
    Mr. Barry. Actually, I am resisting the temptation to read 
you a letter I coincidentally got from Steve Wilson, who is the 
president of the international complimenting us on the way that 
we worked at the conference with the state representatives who 
were there.
    Let me just say that one of the things that we did at the 
conference was begin a dialog with the international about ways 
of integrating state involvement in CITES matters much earlier 
than we have in the past.
    Actually, there is a fairly high level of early 
involvement, many months before the CITES conference takes 
place with the state fish and wildlife folks, but I am not 
persuaded personally that we have still perfected the process.
    What we would find ourselves doing at the CITES conference 
is having the type of hurried discussion regarding alternative 
conservation strategies that the states may adopt or might be 
willing to consider in order to avoid having to press something 
to a final vote, and those are the type of discussions that we 
should have been having months before, and not having had at 
the CITES conference.
    I talked to Steve about this, and the International 
Association of Fish and Wildlife Agencies is having their next 
meeting, I think, in September. They had a large number of 
people at the conference, and I think to the same extent that 
both of you found it very educational and informative for going 
to a conference, I think the reaction of the regional 
representatives from the international was pretty much the 
same.
    What we have agreed to do is at their next meeting in 
September, try to have sort of a focus discussion and dialog 
with the international about CITES, about the role that the 
state fish and wildlife agencies can and should play, and to 
look for ways of reducing the need on our part to have to offer 
proposals to list U.S. species. We don't consider that a 
victory. We consider that if we were at that type of an 
endpoint that it was somehow a failure on our part.
    What we need to do is do a better job working with the 
states in advance so that we can identify any particular 
problems and not feel that a CITES listing is the best 
solution. I think home-grown solutions are the best solutions, 
and I think that was one of the reasons that we had trouble 
with some of our proposals. People felt that what we really had 
was a domestic problem, not an international trade problem, and 
the proposals that we ended up withdrawing were subject to that 
criticism, and I think we need to do a better job looking for 
ways of avoiding those types of critical assessments.
    Mr. Pombo. I seemed to get the feeling or the impression 
while I was there that there really was a shift within the 
international community to pulling in the community or the 
country where the species exist into begin a bigger part of the 
solution. I think at times in the past, we have tended to think 
that we had to solve that problem for them, and I think that we 
are beginning to see a shift within the international community 
that these countries really do have to come up with their own 
solutions.
    In dealing with our states, I think it is kind of the same 
problem. We need to bring them into being part of the solution, 
if it is going to work, because they are the ones that have to 
implement it.
    Mr. Barry. I would agree with you completely on that, and I 
think one of the hallmarks of Jamie Clark's efforts under the 
Endangered Species Act, Jamie, yesterday, had her confirmation 
hearing to be the next director of the Fish and Wildlife 
Service.
    Jamie has taken the lead in looking for ways of working 
with state fish and wildlife agencies and other state officials 
to develop proactive conservation agreements as an alternative 
to having to list endangered or threatened species.
    I know Jamie supports this idea very strongly that it is 
the best solution, that a preventive solution is the best 
solution, and I think that it is a real opportunity for us to 
do a much better job in working with the international. We look 
forward to that.
    They are the people on the ground that control what is 
going on with many of these species, and if we can collectively 
work together to develop better data bases, to do a better job 
in tracking what is going on, especially with the captive 
breeding operations, to have a better sense of whether or not 
there is still any take from the wild going on. I think all of 
that will ultimately help us tremendously in having better 
developed proposals going into CITES.
    Mr. Pombo. One of the issues that was on the table and we 
are beginning to see more of is this whole idea of sustainable 
use, and I think that what the bottom line is, in this country, 
we have talked a lot about an incentive-based system, going to 
an incentive-based system so that if you are habitat for 
wildlife, it is a positive and not a negative.
    We see that in Zimbabwe that they have used trophy hunting 
as a way of making a value to the wildlife to the local people, 
therefore, they protect it. That does not necessarily have to 
be the only value, but there is that whole idea of an 
incentive-based system.
    In the future, do you see the U.S. looking at that more as 
an alternative and more as a solution to some of the problems 
internationally that are out there, is to make that a positive 
versus being a negative?
    Mr. Barry. I think as a general concept, we are very much 
interested in looking for ways of relying on incentives to 
promote conservation. That clearly has been the hallmark of 
what we have been trying to do here in the U.S. with some of 
the ESA reforms that we have been promoting.
    I think we see that there is a potential for application 
overseas. The one tricky thing is that CITES is somewhat of a 
limited tool in that it is a convention that focuses on 
international trade. So your opportunities under CITES are 
somewhat limited to activities that are involving trade, and 
that is why with regard to Congressman Farr's question, the 
things that he was talking about, ecotourism and so on, is 
really beyond the scope of CITES. It is not that the 
opportunity isn't there, but it is that we may need to look for 
alternative ways of promoting it, maybe through a ministry to 
ministry cooperative agreement of some sort with our National 
Park Service and their Ministry of Wildlife and Tourism.
    I think even under CITES, there are ideas which have 
evolved over time which look for ways of trying to provide 
incentives for conservation onsite. The whole ranching 
proposal, the concept of ranching, for instance, where they 
will take some species out of the wild, they will raise them in 
captivity, release a number back to the wild, and help sustain 
populations in that manner, I think as a general matter, when 
they have had well developed, thoughtful proposals, have been 
very effective in restoring populations like the Nile crocodile 
and others.
    The opportunities are there. We are generally supportive of 
the concept. We recognize that we may not be able to do as much 
as we might prefer under CITES alone, and ultimately, it may 
end up being a matter of limited resources that will limit our 
interest in this area, but it is something that we are very 
supportive of where we can find the right opportunity.
    Mr. Pombo. Thank you. Mr. Miller.
    Mr. Miller. Thank you. Let me ask you if you could be a 
little bit more expansive where you think we are on mahogany 
and where you think this is going to go in the future.
    There was obviously extended debate and a lot of 
discussions between countries about this that are involved 
either as a producer or consumer.
    What do you think is going to happen in the future here, 
given the results of the conference?
     Mr. Barry. My first day back in Washington, DC, I opened 
up the Washington Post and saw In The Loop sort of the ten or 
twelve rules of life in Washington, one of which is if you have 
to answer a question directly, mumble decisively.
    Let me mumble decisively on the mahogany question, and the 
reason I am being somewhat facetious about that, Brooks Yeager 
was the person on the delegation who spent most of the time 
handling mahogany for us, and Brooks is out of DC right now, so 
I am sort of a standby on the mahogany issue for you.
    I think mahogany turned out to be a very tough issue 
virtually for all sides. I heard reports that in Brazil, the 
position that the government took has not been going down well 
in some of the press accounts, and that there is a fair amount 
of internal debate within Brazil as to whether or not the 
delegation perhaps should not have been as aggressive in 
opposing our Appendix II listing.
    But in terms of where we are today, we have an opportunity 
now to work with all the range states for mahogany in 
developing and conducting a study on sustainable utilization of 
mahogany. There is, I think, a commitment now on the part of 
Brazil and Bolivia and some of the other major range states to 
work with us on mahogany conservation.
    Brazil agreed to or offered to and has followed through 
with an Appendix III listing of mahogany. They called on the 
other major range states to do the same thing.
    This is important, because now mahogany coming out of 
Brazil will need to have a certificate of origin, so we are 
beginning to develop a data base which will be more helpful for 
us in assessing the level of trade that is going on.
    Some of the other major range states, I think Bolivia also 
put their mahogany on Appendix III, so I think what they have 
in mind over the next 18 months, I believe, is the development 
of a sustainable use study and analysis with the major range 
states and the importing countries. I think what we have is a 
window of opportunity between now and the next CITES conference 
to see if we can make real progress on the whole question of 
sustainability of trade with mahogany.
    If we fail, then this issue will be back at the next 
conference. I have no doubt about that, but I think we at least 
came out of it with an opportunity to work with Brazil because 
Brazil has to be the major source of the solution to this whole 
issue.
    Mr. Miller. It seems to me to be one of those issues that 
you sort of touched upon in your remarks, and that is that 
there is an opportunity, I think, because of the awareness that 
our proposal brought to the issue that there is really sort of 
an opportunity to start on a real solution, sort of outside of 
CITES and maybe avoid engaging CITES next time.
    It seems to me there is sort of two issues. There is that 
one, mahogany, which you sort of get to look ahead and the 
various countries decide how they want to handle it. Then if 
you take the downlisting of the elephant, the very decisive 
action taken at the convention and this, what is it, 20 months 
or whatever time period for these conditions to be met, the 
test there is whether or not CITES can take that kind of action 
and then can you sustain and maintain that action because 
conditions are in fact being met and protocols are in place to 
allow that action to work, for lack of a better word.
    Those seem to me to be kind of two tests of this 
convention. One, can you avoid a future clash, because 
everybody is now on notice, the mahogany and this issue; and 
two, can you maintain and demonstrate a success in a pretty 
rough atmosphere in terms of poaching illegal trade and the 
rest of that?
    Where do you see the United States' involvement in the 
latter in terms of making sure that these conditions weren't 
just window dressing so you could get a two-thirds vote, but in 
fact, they really do--that they really are realized so that we 
can determine whether or not conditions like that in fact even 
work for some other downlistings that may be proposed?
    Mr. Barry. Let me ask Marshall to talk a little bit about 
what we think our opportunities are at this point with regard 
to the elephant vote. We have already had some discussions 
about what role we can play that would be most constructive, 
how do we try to best address the issues of concern to us.
    Our opposition was primarily based on the concern about 
poaching in other countries. It was not intended to be a 
reflection of our assessment of the management proposals from 
Zimbabwe, Botswana, and Namibia in and of themselves.
    Marshall, why don't you address that issue?
    Mr. Jones. Thank you, Don. Congressman, the conditions that 
were adopted obviously are pretty complex, and it is not a sure 
thing that 18 months from now or 18 months actually from this 
September, so March 1999 would be the first opportunity for 
these countries to be able to sell stockpiles to Japan, and 
then only if the standing committee of CITES, which is now 
chaired by the United Kingdom, determines that the conditions 
have been successfully met.
    We have had discussions with David Brackett, who was the 
chairman of the scientific committee there in Harare, but who 
is sort of continuing to track this issue in his role as 
chairman of the IUCN Species Survival Commission about what we 
might do to assist in the process, to help the standing 
committee make the best decisions, to help establish the kind 
of monitoring system for poaching and illegal trade that is 
required by the conditions that were adopted.
    We think that the IUCN African elephant specialist group 
probably has some good ideas about what that could be and so 
some discussions have gone on with Holly Dublin, who is the 
chairman of that group. We are about to be in contact with the 
chairman of the standing committee in the United Kingdom to see 
how we could match, perhaps, funding that the European Union is 
willing to provide for a consultant who might oversee this 
whole process, to help the CITES secretariat make sure that 
things happen the way they are specified in the resolution, or 
else the standing committee will have to make the decision that 
the conditions haven't been met.
    Mr. Miller. What are our expectations of consuming nations, 
I guess in this particular case, Japan, in terms of their 
contribution and their responsibility, their driving practices 
now? In this one instances in the range state, what is the 
sense of their responsibility in terms of putting in place 
systems for more control of illegal trade?
    Mr. Jones. I think Japan has an enormous responsibility 
here. The panel of experts' evaluation of Japan's system done 
prior to the conference showed that their system has weaknesses 
in it, both in terms of how they deal with worked ivory and how 
they prevent re-export, which is part of the whole system, to 
keep it from leaking out of Japan and showing up elsewhere.
    I think there is a pretty high burden on Japan to go 
through the things that were identified in the panel of 
experts' report, and then to work with the CITES standing 
committee to show that these things have been improved and that 
the system is much better than it is today.
    Mr. Miller. I don't pretend to understand all of the 
subtleties of how you put together a two-thirds vote, but it 
seems to me that clearly in this case, the one-time sale to 
Japan was a driving force and much of the discussions and 
comments on what was taking place at the convention, and not 
only do I believe they have a very strong responsibility to 
have in place a fail-safe system, if you will, but I would 
think from their point of view, it is also a question of 
whether they can develop a model system, because they are right 
back at the next CITES convention or the International Whaling 
Commission dealing with sea turtles and whale meat and a lot of 
other activities, mahogany, that their consumption is driving 
much of the considerations of whether or not to downlist this 
or whatever actions one way or the other, more stringent or 
less stringent.
    This is again an opportunity to see whether or not when 
CITES takes this kind of action, can we develop those fail-safe 
protocols against illegal trade, because I don't think it takes 
a lot of smarts to figure out that if you just kind of do it on 
the status quo, illegal activity can just swamp legal activity, 
and by the time you catch your breath and catch up to it, the 
herds are back at risk, the turtles are at risk, or something 
else is at risk, because illegal activity moves very quickly.
    That is why drug trade is very successful. They are very 
adaptable and very agile, and they don't respond to a lot of 
red tape.
    Legal activity is very hard to put in place, and monitoring 
and controlling that, so when you think of the resources that 
are available from the EU, who was divided in supporting--well, 
they were confused, but anyway, they are there, and now we are 
willing to put up some money to talk about poaching and 
management to make this a successful decision to downlist.
    Hopefully, our contributions as one who raised these as our 
concerns, it wasn't really the management that built the herds; 
it was now whether or not these protocols were in place, and 
then the resources of the Japanese is in this case the primary 
consumer, this ought to be a model of success.
    I mean, there is very, very big stakes at this for future 
decisions by CITES, and I think responsibility has got to be 
doled out here. It can't just be on the nations that happen to 
have the resource, because in many instances, they simply don't 
have the wherewithal to do it.
    Mr. Barry. Congressman, I think we completely agree with 
that assessment and the question then is what can we do that 
would be the most helpful for the long term conservation of the 
elephant.
    As you know, Congress, I think in 1989, passed the African 
Elephant Conservation Act. There is a small grant program under 
that Act. Marshall is the person who sort of is in charge of 
that small grant program, and one of the questions that we are 
assessing right now is to what extent we can help target some 
of the grant money under the African Elephant Conservation Act 
grant program in support of some of these activities.
    I personally was surprised to learn that in recent years, 
there has been no comprehensive data base that has been 
maintained on poaching, for instance. We were all sort of 
grappling and sort of stumbling looking for answers that didn't 
exist on recent levels of poaching across Africa.
    That is useful information. That is very important 
information, and it is one of the things that was recognized in 
the resolution, that we need to work with the range states to 
assist them in the development of a comprehensive data base on 
both trade, on poaching, on all those issues, and that probably 
is a good place for us to look to providing financial support 
in response to the resolutions that were adopted.
    Mr. Miller. I appreciate that response, and obviously, I 
think if we can help either in bilateral discussions with the 
Japanese or with the EU, we would be more than willing, I 
think, to do that.
    I think this really is an opportunity, and I think we are 
in somewhat of a unique position because of the way in the end 
we frame the issue, in the sense of how your delegation dealt 
with this in the sense that it wasn't a slam at these three 
nations, that it really strained to rebuild these populations, 
but it was a very legitimate concern about whether the rest of 
the world in a sense was in a position to accept this trade, 
should it take place. I think to pursue that line could reap 
rather substantial rewards in terms of future considerations at 
CITES, whether or not people have confidence if other decisions 
are going to be made in the years down the road here.
    Mr. Barry. I think also, there is just an overall sense of 
wanting to look like--heading into the conference, there was a 
lot of chatter back and forth about well, the United States is 
going to break arms and rip off kneecaps if they don't get what 
they want.
    I think our overall standing in the conference and our 
standing and our ability to be constructive at CITES is 
directly related to the way that people not only watch our 
behavior going into CITES, but also our behavior coming out of 
a CITES meeting, and we need to show that we can be respectful 
of the decisions that have been made. We try to be constructive 
wherever we can be, and I think we have an obligation to be as 
supportive of elephant conservation as we can be, and we will 
look for ways of working with the decision that was made to be 
helpful where we can be with an eye toward elephant 
conservation ultimately, and to help all the countries have 
better information so they can make these decisions more 
easily.
    That was the real problem. Most of us were sort of 
grappling, trying to figure out really what the consequences 
would be, and we don't really know.
    I think to the extent that we can all help together to get 
better information, to assist the range states in their 
efforts, it would be a real tragedy if we failed.
    Mr. Miller. Thank you, and again, thank you and your entire 
operation for your representation of our positions and our 
country.
    Mr Barry. Thank you.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Pombo. I guess just to followup on what George was just 
asking, one of the concerns that I had about the way everything 
was working was immediately, they went into the secret ballots, 
and I picked up that that was because they were afraid there 
was going to be retribution if everybody knew how they voted.
    Can you give me your assessment on that as well as your 
opinion of how that impacted the outcome?
    Mr. Barry. Secret ballots have always been a very 
controversial issue at CITES conferences in the past, and at 
the last conference in Fort Lauderdale, new rules of procedure 
were adopted which made it exceptionally easy to get a secret 
ballot, even though the expectation was that it would only be 
used in very unusual, rare circumstances.
    This conference had the highest number of secret ballot 
votes ever. The United States is not a big fan of secret 
ballots. We, as I mentioned at the hearing 6 weeks ago or so, 
always act in a very transparent way. We always announce what 
our vote was, even in a secret ballot, so we are not fans of it 
and we will never ask for a secret ballot.
    It is always interesting, too, to sort of try to assess how 
it works or how it actually plays out. I think there have been 
some real surprises in some past secret ballots where the 
assumption was that a secret ballot would help the proponent, 
and I think ultimately, it actually went in the other 
direction.
    My overall assessment is that secret ballots can generally 
be a real toss ball. It can boomerang, it can backfire, it can 
produce some real surprises.
    I think as a tool, it is overrated. I think the operating 
assumption that you need to somehow protect yourself in order 
to be free from retribution, I can understand perhaps maybe why 
there is that impression, but for the life of me, I can't see 
how it actually would work in practice. It is beyond my 
personal belief that we would ever come back from a CITES 
conference and say, well, these three countries voted against 
us, so by God, we are going to just rip off their aid programs 
or something like that.
    That is the fear that people have. It is not the way the 
United States is ever going to conduct itself, I would hope, 
certainly not during our watch.
    Mr. Pombo. I would hope that doesn't happen.
    Mr. Barry. I would hope that the secret ballot process has 
sort of seen its high watermark and we go back to having these 
types of honest debates as a group and not be afraid of them 
taking positions and assuming that people can't live with it.
    Mr. Pombo. One of the things you mentioned was the 
responsibility that the U.S. has to be part of the implementing 
of a lot of these different decisions.
    One of the things I noticed was that the EU was or has 
rewritten their rules regarding the importation of elephant 
products. Is the United States looking at that now? Should we 
expect a proposal coming from the Administration on that or how 
are you going to deal with that?
    Mr. Barry. Let me ask Marshall to describe what the status 
quo will be once the downlistings go into effect in September. 
Marshall.
    Mr. Jones. Congressman, we have imports of elephant 
products regulated right now under an Endangered Species Act 
4[d] rule; elephants are listed as a threatened species, so 
there is a special rule.
    That rule regulates ivory very strictly. It regulates 
trophies in sort of an immediate way. Other elephant parts and 
products such as leather or hides just yields to CITES. 
Whatever is required to satisfy CITES is enough to satisfy 
that.
    The effect will be that as a result of the decision, 
elephant hides which now can be legally commercialized out of 
Zimbabwe, those hides can come into the United States, all they 
need is the right export permit from Zimbabwe; they would be 
available to enter into whatever commercial uses anybody wants 
to put them to in this country.
    Mr. Pombo. Let me stop you right there. As long as they 
have the export permit, in other words, as long as they came 
from some legal source within one of those three countries----
    Mr. Jones. Just Zimbabwe.
    Mr. Pombo. Just Zimbabwe.
    Mr. Jones. The other two countries didn't ask for and 
didn't get a downlisting of hides, so the hides only come from 
Zimbabwe.
    Mr. Pombo. So as long as they have the export permit from 
Zimbabwe showing that it came from a legal source, then that 
would be something that could be imported into this country?
    Mr. Jones. Yes, sir.
    Mr. Barry. If I could just add one thing. I think Congress 
in 1989 when they passed the African Elephant Conservation Act 
focused logically on the one product that was resulting in the 
slaughter of elephants throughout all of Africa, and that was 
ivory.
    Our regulations basically reflect that focus and the 
assumption that if elephants are going to disappear on this 
planet, it will be because of ivory, not because people wanted 
to go into the hide poaching business.
    I think what you have then is a regulatory program that 
reflects Congress' view in 1989 as to what the real threats 
were. That is what we have regulated most significantly, and it 
was President George Bush who made the decision to shut down 
the flow of ivory into the United States, so ivory has always 
been the battleground regarding trade in elephant products.
    Mr. Pombo. Dealing with the sturgeon, I have had a lot of 
people that were concerned about this and discussed this issue 
with me.
    I was wondering, have you had any discussions with the 
industry, the domestic industry, since you returned?
    Mr. Barry. I have not yet, but we have already had a 
followup meeting or at least a post-CITES conference meeting at 
the Interior Department with the Fish and Wildlife Service 
folks. It was just a couple of days ago that I met with them.
    As it turned out, when you have a meeting on this issue, 
you don't get one or two people. I walked into the room and it 
was sort of overwhelming, about 20 people from so many 
different parts of the Fish and Wildlife Service, I lost count, 
but we have already begun a discussion of this matter.
    I have asked the Fish and Wildlife Service to put together 
some background papers for me describing the current process to 
begin to sort of line out what ideas there may be for trying to 
streamline some things.
    We have some time. The sturgeon proposal doesn't kick into 
effect for a full year, and I think we ought to take full 
advantage of that year.
    One of the things we clearly need to do is to be able to 
have a better sense of who the players are within the 
aquaculture sturgeon industry. We would look forward to any 
assistance that you might be able to provide us in that regard. 
We are very much interested in making this as user-friendly and 
painless a process as we can, and we have begun that process 
inside the department.
    Mr. Pombo. I would be very interested in being kept up to 
date on that and being part of that.
    As you know, I do have an aquaculture industry within 
California, within my district, that is very concerned about 
what the ultimate outcome of that would be.
    Another issue I did want to touch on with you is that as 
part of this system that Zimbabwe has in place, the trophy 
hunting does play a major role in that, and one of the things 
that I noticed when I was over there was that the areas that 
were established for hunting were relatively low impact on the 
surrounding area, whereas the areas that were set up for 
ecotourism, the photographic safaris were much more elaborate 
and require considerably more money to set those up. I think 
that that does play on the impact of what decisions they are 
going to make.
    As we start looking at how we are going to implement this 
and what we are going to do to be cooperative and helpful in 
terms of this final decision on the elephants or the current 
decision on the elephants, I know one of the things that has 
been suggested is that we try to put more effort into one side 
versus the other and that we get into that entire debate.
    At some point in the future after you guys have a chance to 
really sit down and look at this, I would like to get some 
ideas from you as to what you are going to do, I guess more on 
the ground in terms of helping in some of these situations.
    Mr. Barry. I don't want to drive too far beyond my 
headlights here. There are two different ways that I can see 
the U.S. continuing to be helpful. I think clearly it is the 
ultimate decision of the host country, Zimbabwe, Namibia, as to 
what they really want to do with their own resources on the 
ground, so we can only provide some opportunities and then see 
if there is any interest and see what type of partnerships you 
can develop.
    AID provides a significant amount of aid and resource money 
to Zimbabwe and Namibia right now, so it is really more of a 
matter for AID to sort of decide what opportunities may be 
present in working with the host country for some of these 
opportunities.
    In the case of what the Department of the Interior might be 
able to do, I spent some time with a number of Canadians. 
Canada has had a very active assistance program in Zimbabwe for 
many years. Right now, they are just finishing up, I think it 
is the fifth year of a 6-year assistance program with the 
Ministry of the Environment and Tourism in Zimbabwe, and one of 
the things that the Canadians were focusing on in particular 
was to assist Zimbabwe in developing a planning process, land 
management planning process for their park system and so on.
    That was one of the areas that we were encouraged to sort 
of step in and help out, and as the Canadians are phasing out, 
maybe we could help phase in with assistance with some of our 
park planning expertise.
    It was interesting. One night, I was introduced to a 
gentleman from Zimbabwe from the Parks and Wildlife Department, 
and he had just come back from our North Cascades National 
Park, and he was very excited about everything that he had 
experienced and learned working with our National Park Service 
folks in North Cascades.
    He is now in charge of planning for the Department of Parks 
and Wildlife for Zimbabwe, and that was one of the things that 
first got me thinking about the opportunities that we have.
    We take for granted so easily what we have in this country 
and how it doesn't take much at all to really have a positive 
impact and to provide really low-budget assistance to other 
people. This person's experience was highly positive, and he 
was delighted at what he had learned, and it just reminded me 
that there are some real opportunities out there to pick up on 
what other people have done, like the Canadians, to look for 
ways of being helpful, to provide some of the assistance that 
we just take for granted, things that we do that we just take 
for granted in this country which could be very useful and very 
helpful if it fits within Zimbabwe or Namibia's overall land 
use management programs.
    Mr. Pombo. I have a number of questions that I will submit 
to you in writing, and if you would answer those in a timely 
manner, I would greatly appreciate it, because there are some 
that deal with different concerns that people have.
    The final question that I would like to put to you and I 
imagine that you may probably have to answer this for the 
record, is that in our debate of reauthorizing the Endangered 
Species Act, one of the issues that we have dealt with is the 
handling of international species.
    I really would appreciate having some feedback from the 
department as to how we deal with some of the problems that we 
currently have with the language dealing with international 
species, how we handle that, I guess in a different manner that 
more accurately represents what is going on right now in the 
world.
    I think that there are some changes that need to be made. I 
would be happy to share with you some of the ideas that we came 
up with in the past couple years, but I would like to get a 
response from you as to how you think we could change this to 
deal with some of the problems that we have in listing 
international species on our endangered species list and what 
problems that causes.
    Mr. Barry. I will be honest about it and lay my cards on 
the table. I think the Endangered Species Act has played an 
important role, at least in influencing the U.S. market for 
some endangered species products. I think the days of Hollywood 
movie stars wanting to buy tigerskin coats are over, and I 
think they probably should be over.
    I do think that we have to be honest enough to recognize 
the limitations on what we can accomplish overseas in promoting 
conservation overseas, given the fact that it is not our 
wildlife, it is not our countryside. I think what that requires 
us to do is to conduct an honest appraisal of how we can help 
provide the best incentives for forcing species conservation.
    I think it is an honest appraisal we need to conduct. Is 
there ways that we can do things better in encouraging 
conservation overseas, I think we need to be willing to 
consider that.
    I do think, though, that having an Endangered Species Act 
which under CITES would be viewed as a stricter domestic 
measure is the correct thing for us to do. I think we would be 
strongly opposed to diminishing the role of the Endangered 
Species Act in dealing with foreign species as a general 
matter, but I think we need to be honest enough to ask the 
question repeatedly, are we really accomplishing conservation 
or is there a way that we can be more effective.
    I think if people can point out ways that we can be more 
effective under a strong Endangered Species Act 
internationally, we would consider it in a heartbeat. I think 
there is real room for dialog here, and I would look forward to 
it.
    Mr. Pombo. Thank you. I appreciate a great deal your coming 
in for the hearing. I appreciate your bringing your staff and 
cohorts with you this morning, even though we didn't make them 
answer any questions. I was trying to be nice, and contrary to 
what many people believe, both George and I did come back, and 
neither one of us took care of each other while we were over 
there.
    I know there was a lot of concern about that, but I think 
that for me at least personally it was a very enlightening 
experience. I learned a lot going over there, and I look 
forward to working with all of you in the future. Thank you 
very much. The hearing is adjourned.
    [Whereupon, at 11:28 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

    [GRAPHIC] [TIFF OMITTED] T4107.001
    
    [GRAPHIC] [TIFF OMITTED] T4107.002
    
    [GRAPHIC] [TIFF OMITTED] T4107.003
    
    [GRAPHIC] [TIFF OMITTED] T4107.004
    
    [GRAPHIC] [TIFF OMITTED] T4107.005
    
    [GRAPHIC] [TIFF OMITTED] T4107.006
    
    [GRAPHIC] [TIFF OMITTED] T4107.007
    
    [GRAPHIC] [TIFF OMITTED] T4107.008
    
    [GRAPHIC] [TIFF OMITTED] T4107.009
    
    [GRAPHIC] [TIFF OMITTED] T4107.010
    
    [GRAPHIC] [TIFF OMITTED] T4107.011
    
    [GRAPHIC] [TIFF OMITTED] T4107.012
    
    [GRAPHIC] [TIFF OMITTED] T4107.013
    
    [GRAPHIC] [TIFF OMITTED] T4107.014
    
    [GRAPHIC] [TIFF OMITTED] T4107.015
    
    [GRAPHIC] [TIFF OMITTED] T4107.016
    
    [GRAPHIC] [TIFF OMITTED] T4107.017
    
    [GRAPHIC] [TIFF OMITTED] T4107.018
    
    [GRAPHIC] [TIFF OMITTED] T4107.019
    
    [GRAPHIC] [TIFF OMITTED] T4107.020
    
    [GRAPHIC] [TIFF OMITTED] T4107.021
    
    [GRAPHIC] [TIFF OMITTED] T4107.022
    
    [GRAPHIC] [TIFF OMITTED] T4107.023
    
    [GRAPHIC] [TIFF OMITTED] T4107.024
    
    [GRAPHIC] [TIFF OMITTED] T4107.025
    
    [GRAPHIC] [TIFF OMITTED] T4107.026
    
    [GRAPHIC] [TIFF OMITTED] T4107.027
    
    [GRAPHIC] [TIFF OMITTED] T4107.028
    
    [GRAPHIC] [TIFF OMITTED] T4107.029
    
    [GRAPHIC] [TIFF OMITTED] T4107.030
    
    [GRAPHIC] [TIFF OMITTED] T4107.031
    
    [GRAPHIC] [TIFF OMITTED] T4107.032
    
    [GRAPHIC] [TIFF OMITTED] T4107.033
    
    [GRAPHIC] [TIFF OMITTED] T4107.034
    
    [GRAPHIC] [TIFF OMITTED] T4107.035
    
    [GRAPHIC] [TIFF OMITTED] T4107.036
    
    [GRAPHIC] [TIFF OMITTED] T4107.037
    
    [GRAPHIC] [TIFF OMITTED] T4107.038
    
    [GRAPHIC] [TIFF OMITTED] T4107.039
    
    [GRAPHIC] [TIFF OMITTED] T4107.040
    
    [GRAPHIC] [TIFF OMITTED] T4107.041
    
    [GRAPHIC] [TIFF OMITTED] T4107.042
    
    [GRAPHIC] [TIFF OMITTED] T4107.043
    
    [GRAPHIC] [TIFF OMITTED] T4107.044
    
    [GRAPHIC] [TIFF OMITTED] T4107.045
    
    [GRAPHIC] [TIFF OMITTED] T4107.046
    
    [GRAPHIC] [TIFF OMITTED] T4107.047
    
    [GRAPHIC] [TIFF OMITTED] T4107.048
    
    [GRAPHIC] [TIFF OMITTED] T4107.049
    
    [GRAPHIC] [TIFF OMITTED] T4107.050
    
    [GRAPHIC] [TIFF OMITTED] T4107.051
    
    [GRAPHIC] [TIFF OMITTED] T4107.052
    
    [GRAPHIC] [TIFF OMITTED] T4107.053
    
    [GRAPHIC] [TIFF OMITTED] T4107.054
    
    [GRAPHIC] [TIFF OMITTED] T4107.055
    
    [GRAPHIC] [TIFF OMITTED] T4107.056
    
    [GRAPHIC] [TIFF OMITTED] T4107.057
    
    [GRAPHIC] [TIFF OMITTED] T4107.058
    
    [GRAPHIC] [TIFF OMITTED] T4107.059
    
    [GRAPHIC] [TIFF OMITTED] T4107.060
    
    [GRAPHIC] [TIFF OMITTED] T4107.061
    
    [GRAPHIC] [TIFF OMITTED] T4107.062
    
    [GRAPHIC] [TIFF OMITTED] T4107.063
    
    [GRAPHIC] [TIFF OMITTED] T4107.064
    
    [GRAPHIC] [TIFF OMITTED] T4107.065
    
    [GRAPHIC] [TIFF OMITTED] T4107.066
    
    [GRAPHIC] [TIFF OMITTED] T4107.067
    
    [GRAPHIC] [TIFF OMITTED] T4107.068
    
    [GRAPHIC] [TIFF OMITTED] T4107.069
    
    [GRAPHIC] [TIFF OMITTED] T4107.070
    
    [GRAPHIC] [TIFF OMITTED] T4107.071
    
    [GRAPHIC] [TIFF OMITTED] T4107.072
    
    [GRAPHIC] [TIFF OMITTED] T4107.073
    
    [GRAPHIC] [TIFF OMITTED] T4107.074
    
    [GRAPHIC] [TIFF OMITTED] T4107.075
    
    [GRAPHIC] [TIFF OMITTED] T4107.076
    
    [GRAPHIC] [TIFF OMITTED] T4107.077
    
    [GRAPHIC] [TIFF OMITTED] T4107.078
    
    [GRAPHIC] [TIFF OMITTED] T4107.079
    
    [GRAPHIC] [TIFF OMITTED] T4107.080
    
    [GRAPHIC] [TIFF OMITTED] T4107.081
    
    [GRAPHIC] [TIFF OMITTED] T4107.082
    
    [GRAPHIC] [TIFF OMITTED] T4107.083
    
    [GRAPHIC] [TIFF OMITTED] T4107.084
    
    [GRAPHIC] [TIFF OMITTED] T4107.085
    
    [GRAPHIC] [TIFF OMITTED] T4107.086
    
    [GRAPHIC] [TIFF OMITTED] T4107.087
    
    [GRAPHIC] [TIFF OMITTED] T4107.088
    
    [GRAPHIC] [TIFF OMITTED] T4107.089
    
    [GRAPHIC] [TIFF OMITTED] T4107.090
    
    [GRAPHIC] [TIFF OMITTED] T4107.091
    
    [GRAPHIC] [TIFF OMITTED] T4107.092
    
    [GRAPHIC] [TIFF OMITTED] T4107.093
    
    [GRAPHIC] [TIFF OMITTED] T4107.094
    
    [GRAPHIC] [TIFF OMITTED] T4107.095
    
    [GRAPHIC] [TIFF OMITTED] T4107.096
    
    [GRAPHIC] [TIFF OMITTED] T4107.097
    
    [GRAPHIC] [TIFF OMITTED] T4107.098
    
    [GRAPHIC] [TIFF OMITTED] T4107.099
    
    [GRAPHIC] [TIFF OMITTED] T4107.100
    
    [GRAPHIC] [TIFF OMITTED] T4107.101
    
    [GRAPHIC] [TIFF OMITTED] T4107.102
    
    [GRAPHIC] [TIFF OMITTED] T4107.103
    
    [GRAPHIC] [TIFF OMITTED] T4107.104
    
    [GRAPHIC] [TIFF OMITTED] T4107.105
    
    [GRAPHIC] [TIFF OMITTED] T4107.106
    
    [GRAPHIC] [TIFF OMITTED] T4107.107
    
    [GRAPHIC] [TIFF OMITTED] T4107.108
    
    [GRAPHIC] [TIFF OMITTED] T4107.109
    
    [GRAPHIC] [TIFF OMITTED] T4107.110
    
    [GRAPHIC] [TIFF OMITTED] T4107.111
    
    [GRAPHIC] [TIFF OMITTED] T4107.112
    
    [GRAPHIC] [TIFF OMITTED] T4107.113
    
    [GRAPHIC] [TIFF OMITTED] T4107.114
    
    [GRAPHIC] [TIFF OMITTED] T4107.115
    
    [GRAPHIC] [TIFF OMITTED] T4107.116
    
    [GRAPHIC] [TIFF OMITTED] T4107.117
    
    [GRAPHIC] [TIFF OMITTED] T4107.118
    
    [GRAPHIC] [TIFF OMITTED] T4107.119
    
    [GRAPHIC] [TIFF OMITTED] T4107.120
    
    [GRAPHIC] [TIFF OMITTED] T4107.121
    
    [GRAPHIC] [TIFF OMITTED] T4107.122
    
    [GRAPHIC] [TIFF OMITTED] T4107.123
    
    [GRAPHIC] [TIFF OMITTED] T4107.124
    
    [GRAPHIC] [TIFF OMITTED] T4107.125
    
    [GRAPHIC] [TIFF OMITTED] T4107.126
    
    [GRAPHIC] [TIFF OMITTED] T4107.127
    
    [GRAPHIC] [TIFF OMITTED] T4107.128
    
    [GRAPHIC] [TIFF OMITTED] T4107.129
    
    [GRAPHIC] [TIFF OMITTED] T4107.130
    
    [GRAPHIC] [TIFF OMITTED] T4107.131
    
    [GRAPHIC] [TIFF OMITTED] T4107.132
    
    [GRAPHIC] [TIFF OMITTED] T4107.133
    
    [GRAPHIC] [TIFF OMITTED] T4107.134
    
    [GRAPHIC] [TIFF OMITTED] T4107.135
    
    [GRAPHIC] [TIFF OMITTED] T4107.136
    
    [GRAPHIC] [TIFF OMITTED] T4107.137
    
    [GRAPHIC] [TIFF OMITTED] T4107.138
    
    [GRAPHIC] [TIFF OMITTED] T4107.139
    
    [GRAPHIC] [TIFF OMITTED] T4107.140
    
    [GRAPHIC] [TIFF OMITTED] T4107.141
    
    [GRAPHIC] [TIFF OMITTED] T4107.142
    
    [GRAPHIC] [TIFF OMITTED] T4107.143
    
    [GRAPHIC] [TIFF OMITTED] T4107.144
    
    [GRAPHIC] [TIFF OMITTED] T4107.145
    
    [GRAPHIC] [TIFF OMITTED] T4107.146
    
    [GRAPHIC] [TIFF OMITTED] T4107.147
    
    [GRAPHIC] [TIFF OMITTED] T4107.148
    
    [GRAPHIC] [TIFF OMITTED] T4107.149
    
    [GRAPHIC] [TIFF OMITTED] T4107.150
    
    [GRAPHIC] [TIFF OMITTED] T4107.151
    
    [GRAPHIC] [TIFF OMITTED] T4107.152
    
    [GRAPHIC] [TIFF OMITTED] T4107.153
    
    [GRAPHIC] [TIFF OMITTED] T4107.154
    
    [GRAPHIC] [TIFF OMITTED] T4107.155
    
    [GRAPHIC] [TIFF OMITTED] T4107.156
    
    [GRAPHIC] [TIFF OMITTED] T4107.157
    
    [GRAPHIC] [TIFF OMITTED] T4107.158
    
    [GRAPHIC] [TIFF OMITTED] T4107.159
    

</pre></body></html>
